                                                                          Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules                                            59717

                                                 not impose additional requirements                      40 CFR Part 81                                        However, you may submit comments
                                                 beyond those imposed by state law. For                    Environmental protection, Air                       using one of three ways (no duplicates,
                                                 that reason, this proposed action:                      pollution control, National parks,                    please):
                                                    • is not a ‘‘significant regulatory                  Wilderness areas.                                       1. Electronically. You may submit
                                                 action’’ subject to review by the Office                                                                      electronically through the Federal
                                                 of Management and Budget under                            Authority: 42 U.S.C. 7401 et seq.                   eRulemaking Portal at http://
                                                 Executive Order 12866 (58 FR 51735,                      Dated: September 15, 2014.                           www.regulations.gov. (Attachments
                                                 October 4, 1993);                                       William C. Early,                                     should be in Microsoft Word, if
                                                    • does not impose an information                     Acting Regional Administrator, Region III.            possible.)
                                                 collection burden under the provisions                                                                          2. By regular, express, or overnight
                                                                                                         [FR Doc. 2014–23638 Filed 10–2–14; 8:45 am]
                                                 of the Paperwork Reduction Act (44                                                                            mail. You may mail your printed or
                                                                                                         BILLING CODE 6560–50–P
                                                 U.S.C. 3501 et seq.);                                                                                         written submissions to the following
                                                    • is certified as not having a                                                                             address:
                                                 significant economic impact on a
                                                                                                         DEPARTMENT OF HEALTH AND                                Patrice Drew, Office of Inspector General,
                                                 substantial number of small entities
                                                                                                         HUMAN SERVICES                                        Department of Health and Human Services,
                                                 under the Regulatory Flexibility Act (5                                                                       Attention: OIG–403–P, Room 5269, Cohen
                                                 U.S.C. 601 et seq.);                                                                                          Building, 330 Independence Avenue SW.,
                                                    • does not contain any unfunded                      Office of Inspector General
                                                                                                                                                               Room 5269, Washington, DC 20201.
                                                 mandate or significantly or uniquely
                                                 affect small governments, as described                  42 CFR Parts 1001 and 1003                              Please allow sufficient time for mailed
                                                 in the Unfunded Mandates Reform Act                                                                           comments to be received before the
                                                                                                         RIN 0936–AA06
                                                 of 1995 (Pub. L. 104–4);                                                                                      close of the comment period.
                                                    • does not have Federalism                           Medicare and State Health Care                          3. By hand or courier. You may
                                                 implications as specified in Executive                  Programs: Fraud and Abuse;                            deliver, by hand or courier, before the
                                                 Order 13132 (64 FR 43255, August 10,                    Revisions to Safe Harbors Under the                   close of the comment period, your
                                                 1999);                                                  Anti-Kickback Statute, and Civil                      printed or written comments to:
                                                    • is not an economically significant                 Monetary Penalty Rules Regarding                        Patrice Drew, Office of Inspector General,
                                                 regulatory action based on health or                    Beneficiary Inducements and                           Department of Health and Human Services,
                                                 safety risks subject to Executive Order                 Gainsharing                                           Cohen Building, 330 Independence Avenue
                                                 13045 (62 FR 19885, April 23, 1997);                                                                          SW., Room 5269, Washington, DC 20201.
                                                    • is not a significant regulatory action             AGENCY:  Office of Inspector General
                                                                                                                                                                 Because access to the interior of the
                                                 subject to Executive Order 13211 (66 FR                 (OIG), HHS.
                                                                                                                                                               Cohen Building is not readily available
                                                 28355, May 22, 2001);                                   ACTION: Proposed rule.                                to persons without Federal Government
                                                    • is not subject to requirements of                                                                        identification, commenters are
                                                 Section 12(d) of the National                           SUMMARY:   This proposed rule would
                                                                                                         amend the safe harbors to the anti-                   encouraged to schedule their delivery
                                                 Technology Transfer and Advancement                                                                           with one of our staff at (202) 619–1368.
                                                 Act of 1995 (15 U.S.C. 272 note) because                kickback statute and the civil monetary
                                                                                                         penalty (CMP) rules under the authority                 Inspection of Public Comments: All
                                                 application of those requirements would                                                                       comments received before the end of the
                                                 be inconsistent with the CAA; and                       of the Office of Inspector General (OIG).
                                                                                                                                                               comment period will be posted on
                                                    • does not provide EPA with the                      The proposed rule would add new safe
                                                                                                         harbors, some of which codify statutory               http://www.regulations.gov for public
                                                 discretionary authority to address, as
                                                                                                         changes set forth in the Medicare                     viewing. Hard copies will also be
                                                 appropriate, disproportionate human
                                                                                                         Prescription Drug, Improvement, and                   available for public inspection at the
                                                 health or environmental effects, using
                                                                                                         Modernization Act of 2003 (MMA) and                   Office of Inspector General, Department
                                                 practicable and legally permissible
                                                                                                         the Patient Protection and Affordable                 of Health and Human Services, Cohen
                                                 methods, under Executive Order 12898
                                                                                                         Care Act, Public Law 111–148, 124 Stat.               Building, 330 Independence Avenue
                                                 (59 FR 7629, February 16, 1994).
                                                                                                         119 (2010), as amended by the Health                  SW., Washington, DC 20201, Monday
                                                    In addition, this rule proposing to
                                                                                                         Care and Education Reconciliation Act                 through Friday from 8:30 a.m. to 4 p.m.
                                                 approve Maryland’s redesignation
                                                                                                         of 2010, Public Law 111–152, 124 Stat.                To schedule an appointment to view
                                                 request, associated maintenance plan,
                                                                                                         1029 (2010) (ACA), and all of which                   public comments, phone (202) 619–
                                                 and MVEBs for transportation
                                                                                                         would protect certain payment practices               1368.
                                                 conformity purposes for the Baltimore
                                                 Area for the 1997 annual PM2.5 NAAQS                    and business arrangements from                        FOR FURTHER INFORMATION CONTACT:
                                                 does not have tribal implications as                    criminal prosecution or civil sanctions               Heather Westphal, Office of Counsel to
                                                 specified by Executive Order 13175 (65                  under the anti-kickback statute. We also              the Inspector General, (202) 619–0335,
                                                 FR 67249, November 9, 2000), because                    propose to codify revisions to the                    for questions relating to the proposed
                                                 the SIP is not approved to apply in                     definition of ‘‘remuneration,’’ added by              rule.
                                                 Indian country located in the state, and                the Balanced Budget Act (BBA) of 1997
                                                                                                                                                               Executive Summary
                                                 EPA notes that it will not impose                       and ACA, and add a gainsharing CMP
                                                 substantial direct costs on tribal                      provision in our regulations.                         A. Need For Regulatory Action
                                                 governments or preempt tribal law.                      DATES: To ensure consideration,                         MMA and ACA include exceptions to
                                                 List of Subjects                                        comments must be delivered to the                     the anti-kickback statute, and BBA of
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                                                                         address provided below by no later than               1997 and ACA include exceptions to the
                                                 40 CFR Part 52                                          5 p.m. Eastern Standard Time on                       definition of ‘‘remuneration’’ under the
                                                   Environmental protection, Air                         December 2, 2014.                                     civil monetary penalties law. OIG
                                                 pollution control, Incorporation by                     ADDRESSES: In commenting, please                      proposes to codify those changes here.
                                                 reference, Nitrogen oxides, Particulate                 reference file code OIG–403–P3.                       At the same time, OIG proposes
                                                 matter, Reporting and recordkeeping                     Because of staff and resource                         additional changes to make technical
                                                 requirements, Sulfur oxides, Volatile                   limitations, we cannot accept comments                corrections to an existing regulation and
                                                 organic compounds.                                      by facsimile (FAX) transmission.                      proposes new safe harbors to the anti-


                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00025   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                 59718                    Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules

                                                 kickback statute to protect certain                     C. Costs and Benefits                                 reimbursable by any Federal health care
                                                 services that the industry has expressed                   There are no significant costs                     program.
                                                 an interest in offering and that we                     associated with the proposed regulatory                  Because of the broad reach of the
                                                 believe could be, if properly structured                revisions that would impose any                       statute, concern was expressed that
                                                 and with appropriate safeguards, low                    mandates on State, local, or tribal                   some relatively innocuous commercial
                                                 risk to Federal health care programs.                   governments or on the private sector.                 arrangements were covered by the
                                                 Finally, the civil monetary penalties law                                                                     statute and, therefore, potentially
                                                                                                         SUPPLEMENTARY INFORMATION: This
                                                 includes a gainsharing CMP provision                                                                          subject to criminal prosecution. In
                                                                                                         notice of proposed rulemaking is part of
                                                 that has yet to be codified in                                                                                response, Congress enacted section 14 of
                                                                                                         a rulemaking that was identified in the
                                                 regulations. We propose to interpret and                Unified Agenda by the title ‘‘Medicare                the Medicare and Medicaid Patient and
                                                 codify that provision in this proposed                  and State Health Care Programs: Fraud                 Program Protection Act of 1987, Public
                                                 rule.                                                   and Abuse; Revisions to the Office of                 Law 100–93 (section 1128B(b)(3)(E) of
                                                                                                         Inspector General’s Safe Harbors Under                the Act), which specifically requires the
                                                 B. Summary of Major Provisions                                                                                development and promulgation of
                                                                                                         the Anti-Kickback Statute, Exclusion
                                                 1. Anti-Kickback Statute and Safe                       Authorities, and Civil Monetary Penalty               regulations, the so-called safe harbor
                                                 Harbors                                                 Rules.’’ OIG has proposed additional                  provisions, that would specify various
                                                                                                         rulemaking in the following areas: CMP                payment and business practices that
                                                   We propose to amend 42 CFR
                                                                                                         authorities (42 CFR part 1003); inflation             would not be treated as criminal
                                                 1001.952 by modifying certain existing
                                                                                                         adjustment for CMPs (42 CFR part                      offenses under the anti-kickback statute,
                                                 safe harbors to the anti-kickback statute
                                                                                                         1003); and exclusion authorities and the              even though they may potentially be
                                                 and by adding safe harbors that provide
                                                                                                         duties and responsibilities of State                  capable of inducing referrals of business
                                                 new protections or codify certain
                                                                                                         Medicaid Fraud Control Units (MFCUs)                  under the Federal health care programs.
                                                 existing statutory protections. These                                                                            Section 205 of the Health Insurance
                                                 changes include:                                        42 CFR parts 1000, 1001, 1002, and
                                                                                                         1006. Each of the proposed rules is a                 Portability and Accountability Act of
                                                   • A technical correction to the                                                                             1996, Public Law 104–191, established
                                                 existing safe harbor for referral services;             stand-alone, independent rule, and thus,
                                                                                                         one can comment meaningfully on this                  section 1128D of the Act, which
                                                   • protection for certain cost-sharing                                                                       includes criteria for modifying and
                                                 waivers, including:                                     proposed rule independent of the
                                                                                                         proposed rules concerning CMP                         establishing safe harbors. Specifically,
                                                   • Pharmacy waivers of cost-sharing                                                                          section 1128D(a)(2) of the Act provides
                                                                                                         authorities, inflation adjustment for
                                                 for financially needy Medicare Part D                                                                         that, in modifying and establishing safe
                                                                                                         CMPs, exclusion authorities, or
                                                 beneficiaries; and                                                                                            harbors, the Secretary of Health and
                                                                                                         authorities and duties of the MFCUs.
                                                   • waivers of cost-sharing for                                                                               Human Services (Secretary) may
                                                 emergency ambulance services                            I. Background                                         consider whether a specified payment
                                                 furnished by State- or municipality-                    A. Anti-Kickback Statute and Safe                     practice may result in:
                                                 owned ambulance services;                               Harbors                                                  • An increase or decrease in access to
                                                   • protection for certain remuneration                                                                       health care services;
                                                 between Medicare Advantage                                 Section 1128B(b) of the Act (42 U.S.C.                • an increase or decrease in the
                                                 organizations and federally qualified                   1320a–7b(b), the anti-kickback statute)               quality of health care services;
                                                 health centers;                                         provides criminal penalties for                          • an increase or decrease in patient
                                                   • protection for discounts by                         individuals or entities that knowingly                freedom of choice among health care
                                                 manufacturers on drugs furnished to                     and willfully offer, pay, solicit, or                 providers;
                                                 beneficiaries under the Medicare                        receive remuneration in order to induce                  • an increase or decrease in
                                                 Coverage Gap Discount Program; and                      or reward the referral of business                    competition among health care
                                                                                                         reimbursable under Federal health care                providers;
                                                   • protection for free or discounted
                                                 local transportation services that meet
                                                                                                         programs, as defined in section 1128B(f)                 • an increase or decrease in the
                                                                                                         of the Act. The offense is classified as              ability of health care facilities to provide
                                                 specified criteria.
                                                                                                         a felony and is punishable by fines of                services in medically underserved areas
                                                 2. Civil Monetary Penalty Authorities                   up to $25,000 and imprisonment for up                 or to medically underserved
                                                                                                         to 5 years. Violations may also result in             populations;
                                                   We propose to amend the definition
                                                 of ‘‘remuneration’’ in the CMP
                                                                                                         the imposition of CMPs under section                     • an increase or decrease in the cost
                                                                                                         1128A(a)(7) of the Act (42 U.S.C. 1320a–              to Federal health care programs;
                                                 regulations at 42 CFR 1003 by adding                    7a(a)(7)), program exclusion under                       • an increase or decrease in the
                                                 certain statutory exceptions for:                       section 1128(b)(7) of the Act (42 U.S.C.              potential overutilization of health care
                                                   • Copayment reductions for certain                    1320a–7(b)(7)), and liability under the               services;
                                                 hospital outpatient department services;                False Claims Act (31 U.S.C. 3729–33).                    • the existence or nonexistence of any
                                                   • certain remuneration that poses a                      The types of remuneration covered                  potential financial benefit to a health
                                                 low risk of harm and promotes access to                 specifically include, without limitation,             care professional or provider, which
                                                 care;                                                   kickbacks, bribes, and rebates, whether               benefit may vary depending on whether
                                                   • coupons, rebates, or other retailer                 made directly or indirectly, overtly or               the health care professional or provider
                                                 reward programs that meet specified                     covertly, in cash or in kind. In addition,            decides to order a health care item or
                                                 requirements;                                           prohibited conduct includes not only                  service or arrange for a referral of health
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                   • certain remuneration to financially                 the payment of remuneration intended                  care items or services to a particular
                                                 needy individuals; and                                  to induce or reward referrals of patients,            practitioner or provider;
                                                   • copayment waivers for the first fill                but also the payment of remuneration                     • any other factors the Secretary
                                                 of generic drugs.                                       intended to induce or reward the                      deems appropriate in the interest of
                                                   We also propose to codify the                         purchasing, leasing, or ordering of, or               preventing fraud and abuse in Federal
                                                 gainsharing CMP set forth in section                    arranging for or recommending the                     health care programs.
                                                 1128A(b) of the Social Security Act (the                purchasing, leasing, or ordering of, any                 Since July 29, 1991, we have
                                                 Act) (42 U.S.C. 1320a–7a(b)).                           good, facility, service, or item                      published in the Federal Register a


                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00026   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                                          Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules                                                 59719

                                                 series of final regulations establishing                drug manufacturers have entered into                  3. The Gainsharing CMP
                                                 safe harbors in various areas.1 These                   agreements with the Secretary to                         Public Law 99–509, the Omnibus
                                                 provisions have been developed ‘‘to                     provide certain beneficiaries access to               Budget Reconciliation Act (OBRA) of
                                                 limit the reach of the statute somewhat                 discounts on drugs at the point of sale.              1986, authorized the Secretary to
                                                 by permitting certain non-abusive                       Section 3301(d) of ACA amends the                     impose CMPs for certain incentive
                                                 arrangements, while encouraging                         anti-kickback statute to protect the                  payments made to physicians by
                                                 beneficial or innocuous arrangements.’’                 discounts provided for under the                      hospitals, risk-sharing health
                                                 (56 FR 35952, 35958 (July 29, 1991).)                   Medicare Coverage Gap Discount                        maintenance organizations (HMOs), and
                                                 Many of the safe harbors create new                     Program.                                              competitive medical plans. Over time,
                                                 exemptions, while other safe harbors                       We are proposing to incorporate into               this provision, section 1128A(b) of the
                                                 interpret exceptions already                            our regulations safe harbors for payment              Act (the Gainsharing CMP), has been
                                                 promulgated by statute.                                 and business practices permitted under                amended to repeal the provisions
                                                   Health care providers and others may                  MMA and ACA, as well as proposing                     relating to HMOs and other risk-sharing
                                                 voluntarily seek to comply with safe                    new safe harbors pursuant to our                      entities and to make various other
                                                 harbors so that they have the assurance                 authority under section 14 of the                     changes in terminology.4 See section
                                                 that their business practices will not be               Medicare and Medicaid Patient and                     6003(g)(3) of Public Law 101–239,
                                                 subject to enforcement action under the                 Protection Act of 1987 to protect                     OBRA of 1989; section 4204(a)(3) and
                                                 anti-kickback statute, the CMP provision                practices that we view as posing a low                4731(b) of Public Law 101–508, OBRA
                                                 for anti-kickback violations, or the                    risk to Federal health care programs as               of 1990; and section 4201(c) of the BBA
                                                 program exclusion authority related to                  long as specified conditions are met.                 of 1997.
                                                 kickbacks. We note, however, that                       B. Civil Monetary Penalty Authorities                    Section 1128A(b)(1) prohibits a
                                                 compliance with a safe harbor insulates                                                                       hospital or a critical access hospital
                                                 an individual or entity from liability                  1. Overview of OIG Civil Monetary                     from knowingly making a payment,
                                                 under the anti-kickback statute and the                 Penalty Authorities                                   directly or indirectly, to a physician as
                                                 beneficiary inducements CMP 2 only;                        In 1981, Congress enacted the CMP                  an inducement to reduce or limit
                                                 individuals and entities remain                         law, section 1128A of the Act, as one of              services provided to Medicare or
                                                 responsible for complying with all other                several administrative remedies to                    Medicaid beneficiaries who are under
                                                 laws, regulations, and guidance that                    combat fraud and abuse in Medicare                    the direct care of the physician. A
                                                 apply to their businesses. In authorizing               and Medicaid. The law authorized the                  hospital or a critical access hospital that
                                                 the Department of Health and Human                      Secretary to impose penalties and                     makes such payment and the physician
                                                 Services (Department or HHS) to protect                 assessments on persons who defrauded                  who knowingly accepts such payment
                                                 certain arrangements and payment                        Medicare or Medicaid or engaged in                    are subject to CMPs of not more than
                                                 practices under the anti-kickback                       certain other wrongful conduct. The                   $2,000 for each beneficiary for whom
                                                 statute, Congress intended the safe                     CMP law also authorized the Secretary                 the payment is made.
                                                 harbor regulations to be updated                        to exclude persons from Federal health
                                                                                                                                                               II. Provisions of the Proposed Rule
                                                 periodically to reflect changing business               care programs (as defined in section
                                                 practices and technologies in the health                1128B(f)(1) of the Act) and to direct the             A. Anti-Kickback Statute and Safe
                                                 care industry.                                          appropriate State agency to exclude the               Harbors
                                                   Section 101 of MMA added a new                        person from participating in any State                   Below is a description of the
                                                 section 1860D to the Act, establishing                  health care programs (as defined in                   additional payment practices that we
                                                 the Part D prescription drug benefit in                 section 1128(h) of the Act). Congress                 are proposing to incorporate under 42
                                                 the Medicare program. Section 101(e) of                 later expanded the CMP law and the                    CFR 1001.952 pursuant to the
                                                 MMA amends section 1128B(b)(3) of the                   scope of exclusion to apply to all                    authorities cited under each heading
                                                 Act to permit pharmacies to waive or                    Federal health care programs, but the                 and the rationale for their inclusion in
                                                 reduce cost-sharing imposed under Part                  CMP applicable to beneficiary                         this proposed rulemaking. Consistent
                                                 D as long as specified conditions are                   inducements remains limited to                        with the criteria set forth in section
                                                 met. In addition, section 237 of MMA                    Medicare and State health care program                1128D(a)(2) for modifying and
                                                 added an exception to permit certain                    beneficiaries. The Secretary delegated                establishing safe harbors, our goal is to
                                                 remuneration between Medicare                           the law’s CMP authorities to OIG. 53 FR               protect beneficial arrangements that
                                                 Advantage organizations and federally                   12993 (April 20, 1988). Since 1981,                   enhance the efficient and effective
                                                 qualified health centers.                               Congress has created various other CMP                delivery of health care and promote the
                                                   ACA also includes a number of                         authorities covering numerous types of                best interests of patients, while also
                                                 provisions that could affect liability                  fraud and abuse, many of which were                   protecting the Federal health care
                                                 under the anti-kickback statute. Section                also delegated by the Secretary to OIG.               programs and beneficiaries from undue
                                                 3301 of ACA establishes the Medicare                    2. The Definition of ‘‘Remuneration’’                 risk of harm associated with referral
                                                 Coverage Gap Discount Program,                                                                                payments. We seek to strike an
                                                                                                            The BBA of 1997 and section
                                                 codified at new section 1860D–14A of                                                                          appropriate balance between protections
                                                                                                         6402(d)(2)(B) of ACA amended the
                                                 the Act (42 U.S.C. 1395w–114A).                                                                               for beneficial arrangements and
                                                                                                         definition of ‘‘remuneration’’ for
                                                 Pursuant to this program, prescription                                                                        safeguards to prevent unscrupulous
                                                                                                         purposes of the beneficiary inducements
                                                                                                         CMP at section 1128A(a)(5) of the Act,
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                    1 56 FR 35952 (July 29, 1991); 61 FR 2122 (Jan.
                                                                                                                                                               0936–AA04, Medicare and State Health Care
                                                 25, 1996); 64 FR 63518 (Nov. 19, 1999); 64 FR           as discussed below. We propose to                     Programs: Fraud and Abuse; Revisions to the Office
                                                 63504 (Nov. 19, 1999); 66 FR 62979 (Dec. 4, 2001);      incorporate these changes into the                    of Inspector General’s Civil Monetary Penalty Rules,
                                                 71 FR 45110 (Aug. 8, 2006); and 72 FR 56632 (Oct.       definition of ‘‘remuneration’’ under                  published on May 12, 2014 (79 FR 27080) (CMP
                                                 4, 2007).                                                                                                     NPRM); this proposed rule uses the section
                                                    2 Pursuant to section 1128A(i)(6)(B), any practice
                                                                                                         proposed § 1003.110 3 (current                        designations proposed in the CMP NPRM, together
                                                 permissible under the anti-kickback statute,            § 1003.101).                                          with current section numbers.
                                                 whether through statutory exception or regulations                                                              4 Requirements relating to physician incentive

                                                 issued by the Secretary, is also excepted from the        3 The Secretary proposed a reorganization of Part   plans in HMOs and other risk-sharing entities are
                                                 beneficiary inducements CMP.                            1003. See Notice of Proposed Rulemaking RIN           now set forth in section 1876(i) of the Act.



                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00027   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                 59720                    Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules

                                                 individuals and entities from taking                    prohibition against inducements to                    suppliers still must comply with other
                                                 advantage of the safe harbors to increase               beneficiaries, found in section                       laws, regulations, and Centers for
                                                 costs to programs and patients or                       1128A(a)(5) of the Act. We propose to                 Medicare & Medicaid Services (CMS)
                                                 compromise quality of care. We seek                     modify § 1001.952(k) by adding two                    program rules.
                                                 comments on how best to do this with                    new subparagraphs to protect certain
                                                                                                                                                               Cost-Sharing Waivers for Emergency
                                                 respect to all of our proposals below.                  cost-sharing waivers that pose a low risk
                                                                                                                                                               Ambulance Services
                                                                                                         of harm and make technical corrections
                                                 1. Referral Services                                                                                             Over the years, we have received
                                                                                                         to the introductory language to account
                                                    We propose to make a technical                       for new subparagraphs. In addition, we                many advisory opinion requests
                                                 correction to the safe harbor for referral              note that subparagraph (k) is limited to              concerning the reduction or waiver of
                                                 services, found at 42 CFR 1001.952(f).                  reductions or waivers of Medicare and                 coinsurance or deductible amounts
                                                 This safe harbor originally required that               State health care program beneficiary                 owed for emergency ambulance services
                                                 any fee a referral service charged a                    cost-sharing. We are considering and                  to an ambulance supplier that is owned
                                                 participant be ‘‘based on the cost of                   solicit comments about expanding this                 and operated by a State or a political
                                                 operating the referral service, and not on              safe harbor to protect waivers under all              subdivision of a State, resulting in many
                                                 the volume or value of any referrals to                 Federal health care programs, if                      favorable advisory opinions (that is,
                                                 or business otherwise generated by the                  applicable, and subject to each of the                approving of such arrangements).
                                                 participants for the referral service                   paragraphs below.                                     Notwithstanding the vast body of
                                                 * * *’’. This language created an                                                                             favorable advisory opinions, we
                                                 unintended ambiguity, such that the                     Part D Cost-Sharing Waivers by                        continue to receive similar requests for
                                                 safe harbor could have been viewed as                   Pharmacies                                            advisory opinions each year. In light of
                                                 permitting referral services to adjust                     As noted in section I.A above, MMA                 this, pursuant to our authority under
                                                 their fees on the basis of the volume of                specifically amended section                          section 1128B(b)(3)(E) of the Act, we
                                                 referrals they make to the participants.                1128B(b)(3) of the Act by adding a new                propose to establish a safe harbor to
                                                 In 1999, we finalized a modification to                 subparagraph (G) that excepts from                    protect those reductions or waivers that
                                                 the language to clarify that the safe                   liability under the anti-kickback statute             meet all the conditions enumerated in
                                                 harbor precludes protection for                         waivers or reductions by pharmacies                   § 1001.952(k)(4).
                                                 payments from participants to referral                  (including pharmacies of the Indian                      First, we propose to require that the
                                                 services that are based on the volume or                Health Service, Indian tribes, tribal                 ambulance provider or supplier be
                                                 value of referrals to, or business                      organizations, and urban Indian                       owned and operated by a State, a
                                                 otherwise generated by, either party for                organizations) of any cost-sharing                    political subdivision of a State, or a
                                                 the other party. See 64 FR 63518, 63526                 imposed under Medicare Part D, as long                federally recognized Indian tribe 5 and
                                                 (Nov. 19, 1999). During subsequent                      as certain conditions are met. These                  be the Medicare Part B provider or
                                                 revisions to the safe harbor by which we                conditions are specified in clauses (i)               supplier of the emergency ambulance
                                                 intended to make a technical correction                 through (iii) of section 1128A(i)(6)(A) of            services. We note that items and
                                                 clarifying that OIG’s exclusion authority               the Act, and we propose to interpret                  services that are paid for directly or
                                                 applied to all Federal health care                      them consistent with our regulations                  indirectly by a government entity (i.e.,
                                                 programs rather than only to Medicare                   interpreting these conditions in                      ‘‘free services’’) generally are not
                                                 and State health care programs, the                     paragraph (1) of the definition of                    reimbursable by Medicare,6 so we also
                                                 language in § 1001.952(f)(2)                            ‘‘remuneration’’ at § 1003.101.                       propose to limit the safe harbor
                                                 inadvertently was changed to ‘‘* * * or                    We propose to add a new                            protection to situations in which a
                                                 business otherwise generated by either                  § 1001.952(k)(3) reflecting this                      provider’s or supplier’s reduction or
                                                 party for the referral service * * *.’’ See             exception to the anti-kickback statute.               waiver of coinsurance or deductible is
                                                 67 FR 11928, 11929 and 11934 (Mar. 18,                  Thus, consistent with the statute, a                  not considered to be the furnishing of
                                                 2002). Therefore, we propose to make a                  pharmacy waiving Part D cost-sharing                  services paid for directly or indirectly
                                                 technical correction and revert to the                  qualifies for safe harbor protection if: (1)          by a government entity, subject to
                                                 language in the 1999 final rule cited                   The waiver or reduction is not                        applicable exceptions promulgated by
                                                 above.                                                  advertised or part of a solicitation; (2)             CMS. CMS has explained that certain
                                                                                                         the pharmacy does not routinely waive                 cost-sharing waivers do not constitute
                                                 2. Cost-Sharing Waivers                                 the cost-sharing; and (3) before waiving              the provision of free services:
                                                    Generally, the reduction or waiver of                the cost-sharing, the pharmacy either                   A [State or local government] facility
                                                 Medicare or other Federal health care                   determines in good faith that the                     which reduces or waives its charges for
                                                 program cost-sharing amounts may                        beneficiary has a financial need or the               patients unable to pay, or charges patients
                                                 implicate the anti-kickback statute. Our                pharmacy fails to collect the cost-                   only to the extent of their Medicare and other
                                                 concern about potentially abusive                       sharing amount after making a                         health insurance coverage, is not viewed as
                                                 waivers of cost-sharing amounts under                   reasonable effort to do so. If, however,              furnishing free services and may therefore
                                                 the anti-kickback statue is longstanding.               the waiver or reduction of cost-sharing               receive program payment.7
                                                 For example, we have previously stated                  is made on behalf of a subsidy-eligible                  Notwithstanding the use of the term
                                                 that providers and suppliers that                       individual (as defined in section                     ‘‘facility,’’ CMS has confirmed that this
                                                 routinely waive Medicare cost-sharing                   1860D–14(a)(3) of the Act), then                      provision would apply to an ambulance
                                                 amounts for reasons unrelated to                        conditions (2) and (3) above are not                  provider or supplier that was owned
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                 individualized, good faith assessments                  required. We reiterate, however, that
                                                 of financial hardship may be held liable                compliance with the conditions of this                  5 Section 104 of the Federally Recognized Indian

                                                 under the anti-kickback statute. See e.g.,              safe harbor, as with all safe harbors,                Tribe List Act of 1994, Public Law 103–454, 108
                                                                                                                                                               Stat. 4791, requires the Secretary to publish a list
                                                 Special Fraud Alert, 59 FR 65372, 65374                 protects a individual or an entity from               of all federally recognized Indian tribes on an
                                                 (Dec. 19, 1994). Such waivers may                       liability only under the anti-kickback                annual basis.
                                                 constitute prohibited remuneration to                   statute and the beneficiary inducements                 6 See 42 CFR § 411.8.

                                                 induce referrals under the anti-kickback                CMP, pursuant to section 1128A(i)(6)(B)                 7 CMS Medicare Benefit Policy Manual, Pub. No.

                                                 statute, as well as violations of the CMP               of the Act. Providers, practitioners, and             100–02, ch. 16, § 50.3.1.



                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00028   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                                          Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules                                            59721

                                                 and operated by a State or a political                  services from a federally qualified                   would incorporate by reference the
                                                 subdivision of a State and that was the                 health center (FQHC) that has a written               following definitions of the terms
                                                 Medicare Part B provider or supplier of                 agreement with the MA plan. Section                   ‘‘applicable beneficiary’’ and
                                                 the emergency ambulance services.                       237 of MMA amended 42 U.S.C.                          ‘‘applicable drug’’ which were added by
                                                    We also would require that the                       1395w–27(e) by adding a new paragraph                 a new section 1860D–14A(g) of the Act:
                                                 ambulance provider or supplier offer the                (3) regarding agreements between MA                     Applicable beneficiary means an
                                                 reduction or waiver on a uniform basis,                 organizations and FQHCs. This new                     individual who, on the date of dispensing a
                                                 without regard to patient-specific                      paragraph requires that the written                   covered part D drug—
                                                 factors. In addition, we propose to                     agreement between the two entities                      (A) is enrolled in a prescription drug plan
                                                 include an express prohibition against                  specifically provide that the MA                      or [a Medicare Advantage Prescription Drug
                                                 claiming the amount reduced or waived                   organization will pay the contracting                 (MA–PD)] plan;
                                                 as bad debt for payment purposes under                  FQHC no less than the level and amount                  (B) is not enrolled in a qualified retiree
                                                 Medicare or a State health care program                                                                       prescription drug plan;
                                                                                                         of payment that the plan would make                     (C) is not entitled to an income-related
                                                 or otherwise shifting the burden of the                 for the same services if the services were            subsidy under section 1860D–14(a); and
                                                 reduction or waiver onto Medicare, a                    furnished by another type of entity.                    (D) who—
                                                 State health care program, other payers,                Section 237 also added a new statutory                  (i) has reached or exceeded the initial
                                                 or individuals. We solicit comments on                  exception to the anti-kickback statute at             coverage limit under section 1860D–2(b)(3)
                                                 these proposed conditions.                              section 1128B(b)(3)(H) of the Act (42                 during the year; and
                                                    For purposes of this safe harbor, we                 U.S.C. 1320a–7b(b)(3)(H)). This                         (ii) has not incurred costs for covered part
                                                 plan to interpret the term ‘‘ambulance                  exception protects ‘‘any remuneration                 D drugs in the year equal to the annual out-
                                                 provider or supplier’’ as a provider or                                                                       of-pocket threshold specified in section
                                                                                                         between a federally qualified health                  1860D–2(b)(4)(B).
                                                 supplier of ambulance transport services                center (or an entity controlled by such                 Applicable drug means, with respect to an
                                                 that furnishes emergency ambulance                      a health center) and an MA organization               applicable beneficiary, a covered part D
                                                 services. The term would not include a                  pursuant to a written agreement                       drug—
                                                 provider or supplier of ambulance                       described in section 1853(a)(4) [of the                 (A) approved under a new drug application
                                                 transport services that furnishes only                  Act].’’ 8 We propose to incorporate this              under section 505(b) of the Federal Food,
                                                 nonemergency transport services,                        exception into the safe harbor                        Drug, and Cosmetic Act or, in the case of a
                                                 because the safe harbor would only                      regulations as new section 42 CFR                     biologic product, licensed under section 351
                                                 apply to the waiver of cost-sharing in                                                                        of the Public Health Service Act (other than
                                                                                                         1001.952(z) and solicit comments on                   a product licensed under subsection (k) of
                                                 connection with emergency ambulance                     this proposal.                                        such section 351); and
                                                 services. We plan to interpret                                                                                  (B)(i) if the sponsor of the prescription
                                                 ‘‘emergency ambulance services’’ in a                   4. Medicare Coverage Gap Discount
                                                                                                         Program                                               drug plan or the MA organization offering the
                                                 manner consistent with the definition                                                                         MA–PD plan uses a formulary, which is on
                                                 given to that term in 42 CFR                               Section 3301 of ACA establishes the                the formulary of the prescription drug plan
                                                 1001.952(v)(4)(iv). We solicit comments                 Medicare Coverage Gap Discount                        or MA–PD plan that the applicable
                                                 on this interpretation and on whether                   Program, codified at section 1860D–14A                beneficiary is enrolled in;
                                                 these terms need to be expressly defined                of the Act. Under this program,                         (ii) if the [prescription drug plan (PDP)]
                                                                                                         prescription drug manufacturers enter                 sponsor of the prescription drug plan or the
                                                 in the regulatory text of this safe harbor.
                                                                                                                                                               MA organization offering the MA–PD plan
                                                    Finally, we are considering whether                  into an agreement with the Secretary to
                                                                                                                                                               does not use a formulary, for which benefits
                                                 to include reductions or waivers of cost-               provide certain beneficiaries access to               are available under the prescription drug
                                                 sharing amounts owed under other                        discounts on drugs at the point of sale.              plan or MA–PD plan that the applicable
                                                 Federal health care programs (e.g.,                        Section 3301(d) of ACA amends the                  beneficiary is enrolled in; or
                                                 Medicaid) in the safe harbor. We solicit                anti-kickback statute by adding a new                   (iii) is provided through an exception or
                                                 comments on this consideration, and on                  subparagraph (J) to section 1128B(b)(3)               appeal.
                                                 what additional or different safeguards,                of the Act to protect the discounts
                                                                                                         provided for under the Medicare                       5. Local Transportation
                                                 if any, might be required to protect
                                                 against fraud, waste, and abuse.                        Coverage Gap Discount Program. To                        Pursuant to our authority at section
                                                    This safe harbor would apply only to                 codify this self-implementing exception               1128B(b)(3)(E) of the Act, we propose to
                                                 situations in which the governmental                    in our regulations, this proposed rule                establish a new safe harbor at 42 CFR
                                                 unit owns and operates the ambulance                    would add a new paragraph (aa) to the                 1001.952(bb) to protect free or
                                                 provider or supplier; it would not apply                existing safe harbor regulations at 42                discounted local transportation services
                                                 to contracts with outside ambulance                     CFR 1001.952.                                         provided to Federal health care program
                                                 providers or suppliers. For example, if                    This new paragraph (aa) would                      beneficiaries. We explored this issue in
                                                 a municipality contracted with an                       protect a discount in the price of an                 the context of section 1128A(a)(5) in the
                                                 outside ambulance provider or supplier                  ‘‘applicable drug’’ of a manufacturer                 past. According to the Act’s legislative
                                                 for rendering services to residents of its              that is furnished to an ‘‘applicable                  history, in enacting section 1128A(a)(5)
                                                 service area, the municipality could not                beneficiary’’ under the Medicare                      of the Act, Congress intended that the
                                                 require the ambulance provider or                       Coverage Gap Discount Program under                   statute not preclude the provision of
                                                 supplier to waive the collection from                   section 1860D–14A, as long as the                     complimentary local transportation of
                                                 beneficiaries of out-of-pocket cost-                    manufacturer participates in, and is in               nominal value (H.R. Conf. Rep. No. 104–
                                                 sharing amounts unless the                              full compliance with all requirements                 736 at 255 (1996)). We have interpreted
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                 municipality paid the cost-sharing                      of, the Medicare Coverage Gap Discount                ‘‘nominal value’’ to mean no more than
                                                 amounts owed or otherwise made                          Program. The proposed regulation                      $10 per item or service or $50 in the
                                                 provisions for paying them.                                                                                   aggregate over the course of a year. (See
                                                                                                           8 Section 1853(a)(4) of the Act (42 U.S.C. 1395w–   65 FR 24400, 24411; April 6, 2000.) As
                                                 3. Federally Qualified Health Centers                   23(a)(4)) generally describes the payment rule for    we previously indicated, we were
                                                 and Medicare Advantage Organizations                    FQHCs that provide services to patients enrolled in
                                                                                                                                                               concerned that this interpretation may
                                                                                                         MA plans that have an agreement with the FQHC,
                                                    An individual enrolled in a Medicare                 including agreements required under 42 U.S.C.         be overly restrictive in the context of
                                                 Advantage (MA) plan may receive                         1395w–27(e)(3).                                       complimentary local transportation.


                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00029   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                 59722                    Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules

                                                 Accordingly, we solicited public input                  comments on a number of safeguards                    unnecessary home health care
                                                 on a number of issues as they related to                and limitations related to this proposed              prescriptions. To address this concern,
                                                 a possible exception to section                         condition.                                            we are considering excluding home
                                                 1128A(a)(5) of the Act (via 1128A(i)(6))                   (a) We propose that the safe harbor                health care providers from safe harbor
                                                 for complimentary local transportation.                 protect free or discounted local                      protection when they furnish free or
                                                 (67 FR 72892; Dec. 9, 2002) (2002                       transportation offered or provided by                 discounted local transportation to their
                                                 Solicitation). However, ultimately we                   any individual or entity, except as                   referral sources (but not excluding them
                                                 did not propose or finalize an exception                provided below (for purposes of this                  from protection when they provide such
                                                 for complimentary local transportation.                 safe harbor, an ‘‘Eligible Entity’’),                 transportation to non-referral sources,
                                                    On the basis of our experience in the                subject to meeting all proposed                       such as pharmacies). We also solicit
                                                 years since the 2002 Solicitation and                   safeguards herein. The term ‘‘Eligible                comments on whether home health
                                                 our continued concern that our                          Entity’’ in the proposed safe harbor                  agencies should be excluded from the
                                                 interpretation of ‘‘nominal value’’ in the              would not include individuals and                     definition of ‘‘Eligible Entity’’ entirely.
                                                 context of complimentary local                          entities (or family members or others                    At this time, we propose that the safe
                                                 transportation may be overly restrictive,               acting on their behalf) that primarily                harbor criteria apply equally to all
                                                 we are proposing a safe harbor to the                   supply health care items (including, but              Eligible Entities offering the eligible
                                                 anti-kickback statute to protect not only               not limited to durable medical                        forms of free or discounted local
                                                 certain free local transportation but also              equipment (DME) suppliers or                          transportation services. In addition to
                                                 discounted local transportation that                    pharmaceutical companies) because we                  considering whether to exclude certain
                                                 meets certain conditions. As explained                  believe that there may be additional risk             types of providers or suppliers of
                                                 above, by operation of section                          that these types of entities, which are               services from protection as described
                                                 1128A(i)(6)(B), practices permissible                   heavily dependent upon practitioner                   above, we are also considering and
                                                 under the safe harbor would also be                     prescriptions and referrals, would use                solicit comments on whether there
                                                 excepted from the definition of                         transportation arrangements to generate               should be additional safeguards
                                                 ‘‘remuneration’’ in section 1128A(i)(6)                 business for themselves by steering                   depending on the type of Eligible Entity
                                                 of the Act.                                             transported patients to those who order               offering the transportation services and,
                                                    The proposed safe harbor would                       their products. Moreover, these                       if so, what types of safeguards could be
                                                 protect free or discounted local                        suppliers and manufacturers do not                    included to protect beneficial free or
                                                 transportation made available to                        have the broader patient care                         discounted local transportation
                                                 established patients (and, if needed, a                 responsibilities that, for example,                   arrangements while at the same time
                                                 person to assist the patient) to obtain                 hospitals, health systems, clinics, and               preventing abuses, such as
                                                 medically necessary items and services.                 physicians have, and thus they would                  overutilization, improper patient
                                                 We also seek comments on a second                       seem to have less need to engage in free              steering, or use of free or discounted
                                                 format of transportation that would be                  or discounted local transportation                    local transportation to generate referrals,
                                                 akin to a shuttle service. We are mindful               arrangements. We have similar concerns                either referrals initiated by the
                                                 that certain types of entities may have                 about the laboratory industry even                    transported patient or referrals from
                                                 legitimate financial and patient care                   though laboratories furnish services                  providers and others to whom the
                                                 interests in the provision of local                     rather than items. Thus, we propose to                patients are transported.
                                                 transportation to patients and that such                exclude laboratories from the definition                 (b) We propose and solicit comments
                                                 transportation could, depending on the                  of ‘‘Eligible Entity’’ and solicit                    on limiting safe harbor protection to free
                                                 circumstances, benefit Federal health                   comments on that proposal.                            or discounted local transportation
                                                 care programs through reduced costs                        For the same and other reasons, we                 offered to established patients. Thus, for
                                                 and Federal beneficiaries through better                are considering and solicit comments on               example, once a patient has selected an
                                                 care, access, and convenience. In an                    whether certain other types of                        oncology practice and has attended an
                                                 effort to foster these beneficial                       providers, suppliers of services, or other            appointment with a physician in the
                                                 arrangements without permitting                         entities should be excluded, completely               group, the physician could offer
                                                 arrangements that negatively impact                     or partially, from protection as an                   transportation assistance to the patient
                                                 beneficiaries or Federal health care                    Eligible Entity. In the context of                    who might have trouble reliably
                                                 programs, the safe harbor would impose                  partially limiting protection as an                   attending appointments for
                                                 a number of conditions on protected                     Eligible Entity, we are considering and               chemotherapy. However, safe harbor
                                                 free or discounted local transportation                 seek comments on whether certain types                protection would not be available to a
                                                 services as set forth below.                            of health care providers or suppliers of              practice that offers or provides free or
                                                    (1) We propose to require that the free              services should not be protected when                 discounted transportation to new
                                                 or discounted local transportation                      they provide free or discounted local                 patients.
                                                 services be available only to established               transportation to other health care                      (c) We propose to allow free or
                                                 patients (as described in greater detail                providers or suppliers who refer to                   discounted local transportation services
                                                 below) and be determined in a manner                    them. For example, our oversight                      to the premises of a health care provider
                                                 unrelated to the past or anticipated                    experience suggests that overutilization              or supplier, subject to certain
                                                 volume or value of Federal health care                  may be occurring in the home health                   limitations that we believe would
                                                 program business. This requirement is                   industry. We are concerned that                       reduce the risk of using the
                                                 intended to reduce the risk that a health               protecting the provision of free or                   transportation services to increase
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                 care provider or supplier could use a                   discounted local transportation by home               referrals. First, the safe harbor would
                                                 transportation program for the purpose                  health care providers to physician                    not protect free or discounted local
                                                 of increasing business by transporting                  offices that are actual or potential                  transportation that an Eligible Entity
                                                 patients to its own premises or for the                 referral sources might result in both                 makes available only to patients who
                                                 purpose of inappropriately inducing                     steering (inducing the physician to refer             were referred to it by particular health
                                                 referrals from other providers or                       to that particular home health care                   care providers or suppliers. Likewise,
                                                 suppliers by transporting patients to                   provider) and overutilization in the                  the safe harbor would not protect an
                                                 theirs. We propose and solicit                          form of unnecessary physician visits or               offer of transportation that is contingent


                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00030   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                                          Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules                                         59723

                                                 on a patient’s seeing particular                        provide free or discounted local                      Entities should be limited for purposes
                                                 providers or suppliers who may be                       transportation to non-network or non-                 of safe harbor protection to providing
                                                 referral sources for the Eligible Entity                participating providers or suppliers and,             transportation for medical purposes or if
                                                 offering the transportation. These                      if so, under what conditions. Finally, if             Eligible Entities should also be
                                                 restrictions would not prohibit Eligible                we were to have different standards                   protected under the safe harbor if they
                                                 Entities from setting limitations on the                applicable to entities that do not                    provide free or discounted local
                                                 furnishing of free or discounted local                  directly furnish health care services, we             transportation for other purposes that
                                                 transportation, but they would require                  are interested in comments suggesting                 relate to the patient’s health care (e.g.,
                                                 that the limitations be unrelated to the                safeguards to prevent abuses such as                  to apply for government benefits, to
                                                 volume or value of referrals. For                       overutilization, improper patient                     obtain counseling or other social
                                                 example, a hospital could place a limit                 steering, and increased costs.                        services, or to get to food banks or food
                                                 of 10 miles or a limit on the number of                    (d) We also propose to require that the            stores). We would not protect
                                                 trips on its offer to transport a patient               offer or granting of free or discounted               transportation for purposes wholly
                                                 to another health care provider or                      local transportation services not be                  unrelated to health care, such as
                                                 supplier for the purpose of obtaining                   based on the type of treatment a patient              transportation to entertainment or
                                                 items or services necessary to avoid                    might receive. Under the proposed safe                sporting events. We note, however, that
                                                 hospital readmissions. It could not,                    harbor, an Eligible Entity would be                   the anti-kickback statute prohibits
                                                 however, limit the offer of                             permitted to restrict offers of free or               offering or providing remuneration to
                                                 transportation to patients who receive                  discounted local transportation to                    induce referrals for or receiving items or
                                                                                                         patients whose conditions require                     services paid for by Federal health care
                                                 these items or services from the
                                                                                                         frequent or critical (e.g., follow-up                 programs. The provision of
                                                 hospital’s referral sources. We are
                                                                                                         testing for a drug that has the potential             transportation for non-medical
                                                 considering and seek comments on any
                                                                                                         for serious side effects) appointments,               purposes, even by a provider or supplier
                                                 additional safeguards that would be
                                                                                                         but who do not have reliable                          of health care services, would not
                                                 required to limit the risk of fraud and
                                                                                                         transportation. In practice, this means               necessarily violate the statute,
                                                 abuse associated with one health care
                                                                                                         that a free or discounted local                       depending on the facts and
                                                 provider or supplier providing
                                                                                                         transportation offer might be restricted              circumstances. For example, a hospital
                                                 transportation to the premises of
                                                                                                         to patients with chronic conditions, or               could potentially sponsor shuttle
                                                 another, as well as on whether one                      even, in some circumstances, to patients              service between a housing complex and
                                                 provider or supplier of services should                 with a specific illness. However,                     a grocery store without running afoul of
                                                 be permitted to provide free or                         limiting offers of transportation to                  the statute, if the service were available
                                                 discounted local transportation to the                  patients who have been prescribed                     to all residents of the complex
                                                 premises of others at all. For example,                 expensive treatments that are lucrative               regardless of whether they were or
                                                 if the safe harbor is to cover                          for the Eligible Entity offering the                  would become patients of the hospital.
                                                 transportation provided by one health                   transportation (or a referral source,                    We are considering and solicit
                                                 care provider to the premises of another,               parent company, subsidiary, or other                  comments on whether the safe harbor
                                                 should it be required that the patient be               affiliated entity of the Eligible Entity)             should separately protect transportation
                                                 an established patient of the provider or               would not be protected. For example, an               supplied by an Eligible Entity, such as
                                                 supplier to which the patient would be                  oncology group that offered an                        a hospital, in the form of bus or van
                                                 transported, as well as an established                  expensive radiation treatment in its                  service on regular routes that include
                                                 patient of the Eligible Entity offering the             office could not restrict its offers of               neighborhoods served by the hospital,
                                                 transportation? We also recognize that                  transportation to patients who require                public transportation stops, and the
                                                 health systems, health plans,                           the lucrative radiation treatments. The               hospital campus or other locations
                                                 accountable care organizations, or other                group could, however, offer                           where referring physicians have offices.
                                                 integrated networks of providers and                    transportation to patients who require                If we were to protect this type of
                                                 suppliers might be Eligible Entities and                frequent appointments to monitor their                transportation, protection would not
                                                 might seek to establish a free or                       condition, even if some of those patients             necessarily be limited to established
                                                 discounted local transportation program                 also would receive the radiation                      patients of an Eligible Entity. We
                                                 only among providers and suppliers                      treatment. We solicit comments on this                recognize that certain communities may
                                                 within the system or network. We seek                   proposal.                                             have a need for this type of service, but
                                                 comments on the impact on those                            (e) In addition, we are considering                we also recognize that such a service
                                                 potential programs if we include, as                    and seek comments on whether to                       presents opportunities for fraud and
                                                 conditions of safe harbor protection, the               require Eligible Entities to maintain                 abuse. Thus, we solicit comments not
                                                 restrictions on offers of transportation                documented beneficiary eligibility                    simply on whether this type of service
                                                 set forth in this section. We are                       criteria, such as a requirement that the              would be useful but also on what
                                                 considering whether, and if so, how, the                patient show transportation need or                   additional safeguards we could include
                                                 safe harbor conditions should be                        financial need or that the transportation             to reduce the risk that Eligible Entities
                                                 modified to account for differences that                assistance would address risks                        would use this service to bring in
                                                 may exist when these kinds of entities                  associated with failure to comply with                patients for unnecessary services,
                                                 provide free or discounted local                        a treatment regimen. Offering                         leading to overutilization or
                                                 transportation. We are also considering                 transportation to patients solely on the              compromised quality of care.
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                 whether, for these kinds of entities, safe              basis of number of appointments,                         (2) We propose to limit the form of
                                                 harbor protection should apply only to                  without regard to transportation need,                transportation by excluding from safe
                                                 free or discounted local transportation                 raises the possibility that the offer might           harbor protection air, luxury (e.g.,
                                                 provided to destinations that are                       be based upon the volume of Federal                   limousine), and ambulance-level
                                                 participating or network providers or                   health care program business and thus                 transportation.
                                                 suppliers; conversely, we are                           would not be protected.                                  (3) We propose and solicit comments
                                                 considering whether such entities                          (f) Finally, we are considering and                on the following limitations, which
                                                 should be permitted or required to                      solicit comments on whether Eligible                  would be designed to exclude from


                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00031   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                 59724                     Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules

                                                 protection transportation that is, in                        We recognize that a distance-based                and not shift the burden of these costs
                                                 reality, a means for providers and                        test is not a one-size-fits-all solution.            onto Medicare, a State health care
                                                 suppliers to pay for recruitment of                       Therefore, we are considering and seek               program, other payers, or individuals.
                                                 patients. First, we propose to exclude                    comments on other reasonable methods                 Moreover, safe harbor protection would
                                                 from safe harbor protection                               for interpreting the term ‘‘local’’ either           not be available if the Eligible Entity
                                                 transportation services that are publicly                 alone or in combination with the 25-                 providing the transportation and the
                                                 advertised or marketed to patients or                     mile deeming provision. For example,                 destination provider or supplier had any
                                                 others who are potential referral                         we are considering and solicit                       referral agreement tied to the
                                                 sources. Second, we propose that the                      comments on:                                         transportation. For example, if an
                                                 safe harbor would not apply if Eligible                      • Whether to allow a more expansive               ambulance supplier had an agreement
                                                 Entities were to pay drivers or others                    service area for patients who reside in              with a hospital to provide certain free
                                                 involved in arranging the transportation                  rural or underserved areas, and if so,               transports to hospital outpatients (e.g.,
                                                 on a per-beneficiary transported basis,                   what the appropriate test should be and              via van service) in exchange for
                                                 rather than, for example, on an hourly                    if ‘‘rural’’ or ‘‘underserved’’ should be            receiving the hospital’s transports that
                                                 or mileage basis. Third, no safe harbor                   defined;                                             are payable by Medicare Part B, the free
                                                 protection would be available if                             Æ If we were to include definitions,              transportation would not be protected.
                                                 marketing of health care items and                        we solicit comments on: (1) Defining
                                                 services occurred during the course of                                                                         B. Civil Monetary Penalty Authorities
                                                                                                           ‘‘underserved’’ as being located either in
                                                 the transportation. For purposes of this                  a Health Professional Shortage Area or                  This proposed rule would amend 42
                                                 safe harbor condition, we would not                       a Medically Underserved Area; and (2)                CFR Part 1003 in two ways. First, we
                                                 consider signage on the vehicle                           using the definition of ‘‘rural’’ accepted           propose to amend the definition of
                                                 designating the source of the                             by the Office of Rural Health Policy (i.e.,          ‘‘remuneration’’ related to the
                                                 transportation (e.g., the name of the                     all counties outside a Metropolitan                  beneficiary inducements CMP to: (a)
                                                 hospital) to be ‘‘marketing.’’                            Statistical Area (MSA), plus counties                Add a self-implementing exception that
                                                    (4) We propose to protect only local                   within MSAs with Rural-Urban                         was enacted in BBA of 1997 but was
                                                 transportation services provided: (a) To                  Commuting Codes 4–10). We also solicit               never codified in our regulations; and
                                                 the patient and, if needed, a family                      comments on alternate definitions for                (b) codify amendments that were
                                                 member or other person to assist the                      these terms;                                         enacted in ACA. Second, we propose to
                                                 patient, to obtain medically necessary                       Æ If we were to deem a greater                    codify in our regulations the
                                                 items or services and (b) within the                      distance to be ‘‘local’’ in rural or                 Gainsharing CMP by interpreting terms
                                                 local area of the health care provider or                 underserved areas, we solicit comments               used in that statute and adding a
                                                 supplier to which the patient would be                    on expanding the distance to 35 miles                definition of ‘‘hospital’’ to the
                                                 transported. We propose permitting the                    or to the nearest facility capable of                regulations.
                                                 free or discounted local transportation                   providing medically necessary items
                                                 to be extended to a family member, a                                                                           1. Beneficiary Inducements CMP
                                                                                                           and services, whichever is greater;
                                                 friend, or other person involved in the                                                                           This proposed rule would add
                                                                                                              • whether to permit free or
                                                 patient’s care. We recognize that it may                                                                       exceptions to the regulations at Part
                                                                                                           discounted local transportation to the
                                                 be beneficial or necessary in some                                                                             1003 addressing the civil monetary
                                                                                                           nearest facility capable of providing
                                                 circumstances for the patient to be                                                                            penalties prohibition against offering
                                                                                                           medically necessary items and services,
                                                 accompanied by another person, and we                                                                          inducements to Medicare or Medicaid
                                                                                                           even if the beneficiary resides farther
                                                 do not view this extension as increasing                                                                       beneficiaries that the offeror knows or
                                                                                                           away than the proposed mileage limits
                                                 the risk of fraud and abuse. We do not                                                                         should know are likely to influence the
                                                                                                           would otherwise allow;
                                                 intend to require that the need for a                                                                          selection of particular providers,
                                                                                                              • whether travel time might be more
                                                 patient companion be documented, nor                                                                           practitioners or suppliers.10 As we
                                                                                                           appropriate than a distance-based
                                                 do we intend that transportation of a                                                                          explained in footnote 2 above, one
                                                                                                           method;
                                                 patient companion be required for the                                                                          exception to the definition of
                                                                                                              • whether the general approach used
                                                 proposed safe harbor to apply to                                                                               ‘‘remuneration’’ for purposes of the
                                                                                                           in the regulations governing exceptions
                                                 transportation of the patient.                                                                                 beneficiary inducements CMP
                                                                                                           to the self-referral prohibition related to
                                                    Finally, we propose to limit the safe                                                                       incorporates exceptions to the anti-
                                                                                                           compensation arrangements regarding
                                                 harbor to local transportation. In the                                                                         kickback statute and the safe harbor
                                                                                                           ‘‘geographic area served by the
                                                 interest of providing clear guidance, we                                                                       regulations. However, no parallel
                                                                                                           hospital,’’ which uses a calculation
                                                 propose that if the distance that the                                                                          exception exists in the anti-kickback
                                                                                                           based on the contiguous ZIP Codes from
                                                 patient would be transported is no more                                                                        statute. Thus, the exceptions in section
                                                                                                           which hospitals draw at least 75 percent
                                                 than 25 miles, then the transportation                                                                         1128A(i)(6) of the Act apply only to the
                                                                                                           of their inpatients (see 42 CFR
                                                 would be deemed to be local. We solicit                                                                        definition of ‘‘remuneration’’ applicable
                                                                                                           411.357(e)(2)), would be useful; and
                                                 comments on whether 25 miles is an                                                                             to section 1128A.
                                                                                                              • whether a more general approach,
                                                 appropriate distance for this deeming                                                                             Section 4523 of the BBA of 1997
                                                                                                           such as transportation offered to
                                                 provision. We also solicit comments on                                                                         added section 1833(t)(5)(B) of the Act,
                                                                                                           patients within the primary service area
                                                 whether 25 miles should be a fixed                                                                             which required the Secretary to
                                                                                                           of the provider or supplier (or other
                                                 limitation rather than a distance                                                                              establish a procedure to permit
                                                                                                           location) to which the patient would be
                                                 ‘‘deemed’’ to comply with the safe                                                                             hospitals to elect to reduce copayment
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                                                                           transported, would be appropriate.
                                                 harbor.9                                                                                                       amounts for some or all covered
                                                                                                           We solicit comments on all of these                  hospital outpatient department (OPD)
                                                    9 If 25 miles is a fixed limitation, nothing beyond    possible approaches, and we will                     services (as defined in section
                                                 that distance would be ‘‘local’’ under the safe           consider alternative suggestions as well.            1833(t)(1)(B)) to no less than 20 percent
                                                 harbor, unless the final rule includes alternate tests.      (5) We propose requiring the Eligible
                                                 If 25 miles is deemed to be local, an Eligible Entity                                                          of the Medicare OPD fee schedule
                                                 could still comply with the ‘‘local’’ requirement
                                                                                                           Entity that makes the transportation
                                                 beyond 25 miles under appropriate facts and               available to bear the costs of the free or             10 For additional background on this provision,

                                                 circumstances.                                            discounted local transportation services             see 65 FR 24400 (Apr. 26, 2000).



                                            VerDate Sep<11>2014    14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00032   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                                          Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules                                         59725

                                                 amount. The Secretary established the                   protects ‘‘any other remuneration which               patient’s medical care, such as social
                                                 required procedures at 42 CFR 419.42.                   promotes access to care and poses a low               services.
                                                    Section 4523 of the BBA of 1997 also                 risk of harm to patients and Federal                     We propose to interpret the phrase
                                                 added subsection (D) to the definition of               health care programs (as defined in                   ‘‘low risk of harm to Medicare and
                                                 ‘‘remuneration’’ at section 1128A(i)(6) of              section 1128B(f) and designated by the                Medicaid beneficiaries and the
                                                 the Act. That subsection, which was                     Secretary under regulations).’’                       Medicare and Medicaid programs’’ as
                                                 subsequently redesignated subsection                       For purposes of this exception, we                 meaning that the remuneration: (1) Is
                                                 (E), excluded from the definition of                    propose that the phrase ‘‘promotes                    unlikely to interfere with, or skew,
                                                 ‘‘remuneration’’ ‘‘a reduction in the                   access to care’’ mean that the                        clinical decision-making; (2) is unlikely
                                                 copayment amount for covered OPD                        remuneration provided improves a                      to increase costs to Federal health care
                                                 services under section 1833(t)(5)(B) [of                particular beneficiary’s ability to obtain            programs or beneficiaries through
                                                 the Act].’’ Id. Subsequent to the BBA of                medically necessary health care items                 overutilization or inappropriate
                                                 1997, sections 201(a) and 202(a) of the                 and services. We solicit comments on                  utilization; and (3) does not raise
                                                 Medicare, Medicaid, and SCHIP                           whether this phrase should be                         patient-safety or quality-of-care
                                                 Balanced Budget Refinement Act of                       interpreted more broadly, particularly in             concerns.
                                                 1999 (106 Pub. L. 113) redesignated                     light of the movement towards                            While some forms of remuneration
                                                 subsection 1833(t)(5) as section                        coordinated or integrated care                        covered by the prohibition at section
                                                 1833(t)(8). A corresponding change to                   arrangements that depend, in part, on                 1128A(a)(5) of the Act may promote
                                                 the reference at 1128A(i)(6)(E) was not                 patient engagement. For example, we                   access to care and some forms may pose
                                                 made. We propose to codify the                          are considering whether to interpret                  a low risk of harm to Medicare and
                                                 exception to the definition of                          ‘‘promotes access to care’’ to include                Medicaid beneficiaries and the
                                                 ‘‘remuneration’’ at 1128A(i)(6)(E) in our                                                                     programs, the amendment to the statute
                                                                                                         encouraging patients to access care,
                                                 regulations at proposed 42 CFR                                                                                applies only to forms of otherwise
                                                                                                         supporting or helping patients to access
                                                 1003.110 (current § 1003.101). We                                                                             prohibited remuneration that meet both
                                                                                                         care, or making access to care more
                                                 propose to adopt language identical to                                                                        of these standards. By way of example,
                                                                                                         convenient for patients than it would
                                                 the statutory language, except that we                                                                        through our advisory opinion process,
                                                                                                         otherwise be. We request that any such
                                                 propose to change the reference from                                                                          we have examined and approved
                                                                                                         comments include specific examples of
                                                 1883(t)(5)(B) to 1883(t)(8)(B) to reflect                                                                     arrangements that meet both
                                                                                                         remuneration that would promote
                                                 the redesignation of the originally                                                                           requirements. In these arrangements,
                                                                                                         access to care under a broader definition
                                                 referenced subsection. We believe that                                                                        certain hospitals provide lodging
                                                                                                         that would not be included within the
                                                 our proposed change is consistent with                                                                        assistance to patients and their families
                                                                                                         proposed interpretation above. When                   when the assistance was necessary for
                                                 congressional intent and merely
                                                                                                         providing examples, we request that                   the patient to obtain appropriate care.
                                                 addresses an inadvertent oversight. We
                                                                                                         commenters bear in mind that not all                  Because of the specialized nature of
                                                 solicit comments on this proposal.
                                                    Section 6402(d)(2)(B) of ACA amends                  forms of remuneration provided to                     these hospitals, the lodging programs
                                                 the statutory definition of                             beneficiaries would be prohibited by the              were unlikely to steer patients to those
                                                 ‘‘remuneration’’ at section 1128A(i)(6) of              beneficiary inducements CMP. The                      particular hospitals, and the costs were
                                                 the Act by adding four new                              beneficiary inducements CMP applies                   not passed on to Federal programs. Yet,
                                                 subparagraphs, (F)–(I), protecting                      only to remuneration that the donor                   the programs enabled patients to get
                                                 certain charitable and other programs.                  ‘‘knows or should know is likely to                   treatment that they might not otherwise
                                                 We propose to amend the definition of                   influence [the recipient] to order or                 have been able to access because of
                                                 ‘‘remuneration’’ in the regulations to                  receive from a particular provider,                   logistical hurdles. See OIG Advisory
                                                 include the new statutory exceptions.                   practitioner, or supplier any item or                 Opinion Nos. 11–01 and 11–16.
                                                 We believe these exceptions are                         service for which payment may be                      Similarly, we believe that giving items
                                                 intended to protect certain arrangements                made’’ by Medicare or Medicaid. Thus,                 that are necessary for patients to record
                                                 that offer beneficiaries incentives to                  remuneration that is not likely to                    and report health data, such as blood
                                                 engage in their wellness or treatment                   influence a beneficiary to order or                   pressure cuffs or scales, to beneficiaries
                                                 regimens or that improve or increase                    receive federally reimbursable items or               who could benefit from close
                                                 beneficiary access to care, including                   services from a particular provider,                  monitoring of their blood pressure or
                                                 better care coordination. However, in                   practitioner, or supplier need not meet               weight, promotes access to care, because
                                                 structuring the proposals, we are also                  the conditions of this or any other                   the recording and reporting of health
                                                 mindful of the significant potential for                exception.                                            data increase their ability to obtain
                                                 abusive arrangements that offer                            We are also considering, and                       medically necessary care and pose a low
                                                 vulnerable beneficiaries (or, in some                   soliciting comments on, whether the test              risk of harm to patients and Federal
                                                 cases, cooperating beneficiaries)                       for the exception should be that the                  programs as long as receipt of the items
                                                 remuneration, whether in cash or in                     remuneration would promote access to                  is not conditioned on the patient
                                                 kind, to induce them to obtain items or                 care for a particular beneficiary or                  obtaining other items or services from a
                                                 services billable to Medicare or                        whether the exception should also                     particular provider or supplier.
                                                 Medicaid that may be unnecessary, too                   apply to remuneration that promotes                      However, not every program that
                                                 expensive, or of poor quality. The                      access to care for a defined beneficiary              benefits patients would meet the terms
                                                 proposals set forth below aim to ensure                 population generally, such as, by way of              of this exception. We continue to
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                 that additional protections offered for                 example, beneficiaries in a designated                believe that offering valuable gifts to
                                                 arrangements that benefit patient care                  care network or beneficiaries being                   beneficiaries in connection with direct
                                                 do not lead to such abuses.                             treated under a designated care                       or indirect marketing activities is not
                                                                                                         protocol. Finally, we are considering,                low risk to beneficiaries or to the
                                                 Promotes Access/Low Risk of Harm                        and soliciting comment on, whether we                 Medicare and Medicaid programs. In
                                                   The first new exception to the                        should more broadly interpret ‘‘access                addition, we are concerned that rewards
                                                 definition of ‘‘remuneration,’’ added at                to care’’ to include care that is non-                offered by providers or suppliers to
                                                 section 1128A(i)(6)(F) of the Act,                      clinical but reasonably related to the                patients purportedly for compliance


                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00033   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                 59726                    Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules

                                                 with a treatment regimen pose a risk of                 means, some of which could involve                         (ii) the items or services are offered or
                                                 abuse, in cases when the offerors know                  providing incentives to beneficiaries.                  transferred on equal terms available to the
                                                 or should know that the rewards are                     These programs include, for example, a                  general public, regardless of health insurance
                                                                                                                                                                 status; and
                                                 likely to influence the recipients to                   variety of permanent and demonstration
                                                                                                                                                                    (iii) the offer or transfer of the items or
                                                 order or receive from a particular source               programs testing accountable care                       services is not tied to the provision of other
                                                 items or services paid for by Medicare                  organizations, medical homes, bundled                   items or services reimbursed in whole or in
                                                 or Medicaid. For example, patients                      payments, coordinated care programs,                    part by the program under title XVIII or a
                                                 might seek or agree to seek unnecessary                 and other initiatives to improve the                    State health care program (as defined in
                                                 or poor quality care to obtain the                      quality of care and reduce costs. Some                  section 1128(h)).
                                                 rewards, or providers and suppliers                     participants in particular CMS models,                     This exception concerns retailer
                                                 might order or seek orders for additional               such as the Bundled Payment for Care                    rewards programs. We are aware that
                                                 items or services to recoup the costs of                Initiative, may have waivers of the CMP                 this genre of program has proliferated in
                                                 giving the rewards. In either case, such                for certain arrangements undertaken as                  recent years at grocery stores, drug
                                                 rewards would not be low risk for                       part of the applicable CMS model.11                     stores, ‘‘big-box,’’ and other retailers.
                                                 patients and/or Federal health care                     With respect to CMS programs or                         Although these retailer rewards
                                                 programs.                                               models to which a waiver does not                       programs vary in design, in general most
                                                    While we are concerned about the                     apply, we are considering whether to                    attempt to incentivize and reward
                                                 significant potential for abuse when                    make a special provision in this rule for               customer loyalty by providing benefits
                                                 patients are offered rewards to induce                  incentives offered by participants to                   to shoppers. Many retailers offering
                                                 them to receive items or services, we are               beneficiaries covered by those programs.                such programs have pharmacies that sell
                                                 also aware that, in some circumstances,                 Many of these programs have safeguards                  items or services reimbursable by
                                                 patients might be offered incentives to                 built into their structures. For example,               Federal health care programs.
                                                 encourage them to engage in                             CMS reviews and monitors these                             OIG has interpreted the prohibition
                                                 arrangements that lower health care                     programs, beginning with an application                 on offering gifts and other inducements
                                                 costs (without compromising quality) or                 process, continuing through the                         to beneficiaries as permitting Medicare
                                                 that promote their own wellness and                     development and implementation                          or Medicaid providers generally to offer
                                                 health care, for example, by                            phases, and including a final assessment                beneficiaries inexpensive gifts or
                                                 participating fully in appropriate                      of the overall impact of the program on                 services (other than cash or cash
                                                 prescribed treatment, achieving                         cost and quality of care. Because                       equivalents) without violating the
                                                 appropriate treatment milestones, or                    incentives offered to beneficiaries to                  statute. For enforcement purposes, we
                                                 following up with medically necessary                   foster patient engagement outside the                   have considered inexpensive gifts or
                                                 appointments. We seek comments on                       auspices of such a CMS program are not                  services to be those that have a retail
                                                 whether otherwise prohibited incentives                 subject to this oversight, we would not                 value of no more than $10 individually
                                                 for compliance with treatment regimens                  necessarily consider that remuneration                  and no more than $50 in the aggregate
                                                 should be permitted under this                          (if otherwise prohibited by the                         annually per patient.12 Notwithstanding
                                                 exception and if so, what limitations or                beneficiary inducements CMP) to be low                  this interpretation, we understand that
                                                 safeguards should be required. For                      risk, unless it met the same safeguards                 many retailer reward programs have
                                                 example, should the incentives be                       that we finalize in connection with this                included a blanket exclusion of Federal
                                                 subject to specific dollar value limits?                proposed rule.                                          health care program beneficiaries.
                                                 Should providers or suppliers offering                     We are also soliciting comments on                   Against this backdrop, we believe this
                                                 the incentives be required to document                  other types of remuneration to                          new exception should increase retailers’
                                                 the milestones reached to earn the                      beneficiaries not mentioned in this                     willingness to include Federal health
                                                 incentives? Should the form of the                      preamble that both promote access to                    care program beneficiaries in their
                                                 incentive be required to bear a                         care and pose a low risk of harm to                     reward programs in appropriate
                                                 reasonable connection to the medical                    Medicare and Medicaid beneficiaries                     circumstances.
                                                 care? Are there quality or performance                  and the Medicare and Medicaid                              Section 6402(d)(2)(B) of ACA
                                                 metrics or monitoring mechanisms that,                  programs, to inform our development of                  excludes from the definition of
                                                 if required for safe harbor compliance,                 regulatory text for this exception. We                  ‘‘remuneration’’ rewards pursuant to a
                                                 would help ensure that protected                        are not providing regulatory text at this               retailer rewards program that meet three
                                                 patient incentives are not used to                      time, but we solicit proposals for                      criteria. The first criterion provides that
                                                 facilitate abusive arrangements that                    language, including specific examples of                the free or less-than-fair-market-value
                                                 increase costs or compromise quality?                   the types of remuneration to                            items or services must ‘‘consist of
                                                 Are there different considerations if the               beneficiaries, that would implement the                 coupons, rebates, or other rewards from
                                                 offeror of the incentive is at risk, in                 principles described above.                             a retailer.’’ We propose to interpret
                                                 whole or in part (or directly or
                                                                                                         Retailer Rewards Programs                               these terms as follows. We interpret a
                                                 indirectly) for the treatment that the
                                                                                                           Section 6402(d)(2)(B) of ACA adds the                 ‘‘coupon’’ as something authorizing a
                                                 incentive is intended to encourage (e.g.,
                                                                                                         following exception as new section                      discount on merchandise or services.
                                                 if the offeror is a risk-bearing
                                                                                                         1128A(i)(6)(G) of the Act:                              For instance, if Alpha Store’s rewards
                                                 accountable care organization, medical
                                                                                                                                                                 program mails its customers a flyer
                                                 home, or health plan; a hospital subject                   The offer or transfer of items or services for       offering 20 percent off the purchase
                                                 to readmissions penalties; or a provider                free or less than fair market value by a
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                                                                                                                                 price of any item in the store, the flyer
                                                 reimbursed under a bundled payment                      person, if—
                                                                                                            (i) the items or services consist of coupons,        would be considered a coupon. Another
                                                 arrangement that includes some or all of
                                                                                                         rebates, or other rewards from a retailer;              example of a coupon would be a ‘‘buy
                                                 the incentivized treatment)?
                                                    We recognize that the Department is                                                                          one get one free’’ reward. We propose to
                                                                                                           11 Nothing in this proposed rule would change
                                                 undertaking a number of initiatives and
                                                                                                         the application of existing waivers. It is possible       12 See Special Advisory Bulletin: Offering Gifts
                                                 demonstration programs with the goal of                 that a final exception, as proposed here, might offer   and Other Inducements to Beneficiaries, available at
                                                 encouraging better care and better                      additional protection for participants in programs      http://oig.hhs.gov/fraud/docs/alertsandbulletins/
                                                 health at lower costs through innovative                that have such a waiver.                                SABGiftsandInducements.pdf.



                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00034   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM    03OCP1
                                                                          Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules                                                  59727

                                                 interpret ‘‘rebate’’ as a return on part of             services to federally reimbursable                    explained in the preamble to that final
                                                 a payment. For example, if Beta Store’s                 services as requiring a complete                      rule (‘‘we are excluding from the scope
                                                 retailer reward program consisted of                    severance of the offer from the medical               of permissible exceptions cash and
                                                 returning to customers a store credit                   care of the individual. At the front end              instruments convertible to cash’’ (65 FR
                                                 equal to 1 percent of the total money the               of a transaction (‘‘earning’’ the reward),            24400, 24409 (Apr. 26, 2000)). Other
                                                 customer spent out-of-pocket at the                     the reward should not be conditioned                  proposed limits on what may be
                                                 retailer during the previous calendar                   on the purchase of goods or services                  transferred are discussed in the
                                                 year, it would constitute a rebate. In no               reimbursed in whole or in part by a                   paragraphs below.
                                                 event, however, could a retailer ‘‘rebate’’             Federal health care program and should                   The statute provides that protected
                                                 an amount that exceeds what the                         not treat federally reimbursable items                items or services may not be offered as
                                                 customer spent at the store. We propose                 and services in a manner that is                      part of any advertisement or solicitation.
                                                 to interpret ‘‘other rewards’’ primarily                different from that in which non-                     We are including this requirement in
                                                 as describing free items or services, such              reimbursable items and services are                   our proposed regulation.
                                                 as store merchandise, gasoline, frequent                treated. For instance, a drugstore                       The second statutory criterion is that
                                                 flyer miles, etc. Finally, we interpret                 program that offered a $20 coupon to                  ‘‘the items or services are not tied to the
                                                 ‘‘retailer’’ as having its usual meaning,               customers, including Medicare                         provision of other services reimbursed
                                                 i.e., an entity that sells items directly to            beneficiaries, who transferred their                  in whole or in part by the program
                                                 consumers. We note, however, that                       prescriptions to the drugstore would not              under title XVIII or a State health care
                                                 individuals or entities that primarily                  meet this criterion because the $20                   program. . . .’’ To interpret this
                                                 provide services (e.g., hospitals or                    coupon would be tied to the drugstore’s               criterion in a meaningful way, it is
                                                 physicians) would not be considered                     getting the recipients’ Medicare Part D               necessary to consider it together with
                                                 ‘‘retailers.’’ We are considering and                   prescription drug business. On the other              the next requirement, which is that
                                                 solicit comments on whether entities                    hand, a program that awarded a $20                    there must be a reasonable connection
                                                 that primarily sell items that require a                coupon once a customer spent $1,000                   between the items or services and the
                                                 prescription (e.g., medical equipment                   out-of-pocket in the store—even if a                  medical care of the individual. Each
                                                 stores) should be considered ‘‘retailers.’’             portion of that $1,000 included                       requirement is discussed in more detail
                                                    The second criterion requires that the               copayments for prescription drugs—                    below.
                                                 items or services be offered or                         would likely meet the criterion. We also                 To be protected under the statute, the
                                                 transferred on equal terms to the public,               believe that this attenuation must be                 item or service being offered or
                                                 regardless of health insurance status.                  present on the ‘‘redeeming’’ end of the               transferred must not be tied to the
                                                 We propose to interpret this                            transaction and therefore interpret it to             provision of other reimbursed services.
                                                 requirement consistent with OIG’s                       exclude from protection rewards                       Consistent with our interpretation of the
                                                 longstanding concern that providers and                 programs in which the rewards                         same criterion described in connection
                                                 suppliers of items or services                          themselves are items or services                      with the exception for retailer rewards
                                                 reimbursable in whole or in part by                     reimbursed in whole or in part by a                   programs described above, we do not
                                                 Federal health care programs not                        Federal health care program. Thus, if                 interpret the prohibition on tying the
                                                 discriminate against (‘‘lemon drop’’)—                  Epsilon Store allowed its customers to                free or below-market items and services
                                                 or, conversely, ‘‘cherry pick’’—certain                 redeem reward points only for cost-                   to services reimbursable by Medicare or
                                                 patients on the basis of health insurance               sharing (i.e., the customer’s out-of-                 Medicaid as requiring a complete
                                                 status. For example, we do not believe                  pocket costs) on DME, prescription                    severance of the offer from the medical
                                                 that a retailer that targets its rewards                drugs, or other federally payable items               care of the individual. However, a
                                                 program to Medicare beneficiaries only                  or services, that program would not                   provider’s conditioning the offer or
                                                 would meet this criterion. On the other                 meet this criterion. On the other hand,               transfer of items or services on the
                                                 hand, if a retailer mailed a coupon for                 if the $10 coupon referenced in the first             patient’s use of other services from the
                                                 $10 off the next purchase of any item in                example could be redeemed on anything                 provider that would be reimbursed by
                                                 its store, including prescriptions, to                  purchased in the store, including the                 Medicare or Medicaid would violate
                                                 every resident in the surrounding ZIP                   customer’s out-of-pocket costs for                    this requirement. For example, we
                                                 Code, such a promotion likely would be                  federally reimbursable items, the                     interpret this criterion to exclude from
                                                 in compliance with this provision                       coupon could meet the terms of the                    protection offers by providers of lodging
                                                 because the coupon would be offered on                  exception.                                            or transportation to receive a particular
                                                 equal terms to everyone in the ZIP Code,                                                                      service from the provider.13 We solicit
                                                 without regard to health insurance                      Financial-Need-Based Exception
                                                                                                                                                               comments on this interpretation.
                                                 status.                                                    A third new statutory provision,                      The third statutory requirement is that
                                                    The third criterion requires that the                added at 1128A(i)(6)(H) of the Act,                   there ‘‘is a reasonable connection
                                                 offer or transfer of the items or services              excepts from the definition of                        between the items or services and the
                                                 not be tied to the provision of other                   ‘‘remuneration’’ the offer or transfer of             medical care of the individual.’’ We
                                                 items or services reimbursed in whole                   items or services for free or at less than            must interpret this requirement in the
                                                 or in part by Medicare or an applicable                 fair market value after a determination               context of this particular exception.
                                                 State health care program. We believe                   that the recipient is in financial need               This exception is designed to help
                                                 that the objective of this criterion is to              and meets certain other criteria.                     financially needy individuals access
                                                 attenuate any connection between                           We begin our consideration of this
                                                                                                                                                               items or services related to their medical
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                 federally payable items and services and                new provision by noting that it concerns
                                                 a loyalty program’s rewards; this                       ‘‘the offer or transfer of items or                     13 As explained above, we have approved lodging
                                                 attenuation should be present both in                   services.’’ The term ‘‘items or services’’            and transportation assistance programs through our
                                                 the manner in which a reward is earned                  does not include cash or instruments                  advisory opinion process. However, we found that
                                                 and in the manner in which the reward                   convertible to cash. This interpretation              the programs were consistent with the exception to
                                                                                                                                                               the definition of ‘‘remuneration’’ for programs that
                                                 is redeemed, as explained further below.                is consistent with our interpretation of              promote access to care and pose a low risk of harm
                                                 We do not interpret the prohibition on                  ‘‘permissible incentives for preventive               to patients and Federal health care program
                                                 tying the free or below-market items and                care’’ under section 1128A(i)(6)(D), as               beneficiaries.



                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00035   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                 59728                    Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules

                                                 care; unlike the preventive care                        bicycle helmets or other child safety                 based on objective criteria and be
                                                 exception referenced above, this                        devices to financially needy families                 appropriate for the applicable locality.
                                                 exception is not designed to induce the                 when children are treated for injuries in             Under our proposal, ‘‘financial need’’
                                                 patient to seek additional care.                        the emergency department? We use this                 would not be limited to ‘‘indigence,’’
                                                    For purposes of this requirement, we                 example, which arguably is not related                but could include any reasonable
                                                 interpret ‘‘medical care’’ to refer to the              to ‘‘care,’’ in order to inform comments              measure of financial hardship. What
                                                 treatment and management of illness or                  on the limits of the ‘‘reasonable                     constitutes a good faith determination of
                                                 injury and the preservation of health                   connection to care’’ requirement.                     ‘‘financial need’’ may vary depending
                                                 through services offered by the medical,                   From a financial perspective, transfers            on the individual patient’s
                                                 dental, pharmacy, nursing, and allied                   of items or services of                               circumstances; the individual or entity
                                                 health professions. Consistent with the                 disproportionately large value compared               offering the items or services should
                                                 statutory language, our proposed                        with their medical benefit for the                    have flexibility to consider relevant
                                                 regulation would require a ‘‘reasonable                 individual patient would not qualify.                 variables. We are considering whether
                                                 connection’’ between the remuneration                   For example, transfer to a diabetic                   we have authority to require
                                                 and the patient’s medical care. Whether                 patient of a smartphone preloaded with                documentation of the financial need
                                                 a ‘‘reasonable connection’’ exists                      an ‘‘app’’ relating to management of                  assessment as a condition of the
                                                 depends on a situation’s specific facts                 blood sugar levels would not likely                   exception. Regardless, it would be
                                                 and circumstances. In particular, this                  qualify, while an offer to the diabetic               prudent for those seeking protection
                                                 requirement warrants a dual                             patient of only a complimentary                       under the proposed exception to
                                                 consideration: Whether a reasonable                     download of the app onto his or her                   maintain accurate and contemporaneous
                                                 connection exists from a medical                        own smartphone might.                                 documentation of the need assessment
                                                 perspective and whether a reasonable                       We are considering whether we can                  and the criteria applied.
                                                 connection exists from a financial                      (and, if so, whether we should) identify
                                                                                                         specific conditions under which                       Waivers of Cost-Sharing for the First Fill
                                                 perspective. A reasonable connection
                                                                                                         remuneration would be deemed to be                    of a Generic Drug
                                                 exists from a medical perspective when
                                                 the items or services would benefit or                  ‘‘reasonably connected’’ to the patient’s                The fourth new provision added at
                                                 advance identifiable medical care or                    medical care, and we solicit suggestions              section 1128A(i)(6)(I) of the Act excepts
                                                 treatment that the individual patient is                for possible conditions. For example,                 from the definition of ‘‘remuneration’’
                                                 receiving. From a financial perspective,                one condition we are considering is                   waivers by a PDP sponsor of a Part D
                                                 remuneration disproportionately large                   whether the patient’s physician or other              plan or MA organization offering MA–
                                                 compared with the medical benefits                      health care professional has concluded                PD plans of any copayment that would
                                                 conferred on the individual patient                     that the items or services would benefit              be otherwise owed by their enrollees for
                                                 would not have a reasonable connection                  the individual patient’s treatment.                   the first fill of a covered Part D drug that
                                                 to the patient’s medical care. Such                     Another possible condition is whether,                is a generic drug. Section 6402(d)(2)(B)
                                                 remuneration gives rise to an inference                 absent the transfer of needed health care             of ACA does not define the term
                                                 that at least part of the transfer is being             items or services, the patient would                  ‘‘generic drug,’’ so we propose to rely on
                                                 provided to induce beneficiaries to                     otherwise be expected to lack access to               the definition in the Part D regulations
                                                 obtain additional services, and such                    them for reasons including lack of                    at 42 CFR 423.4.
                                                 remuneration would not be covered by                    payment resources; lack of appropriate                   The type of waiver described in the
                                                 the Financial-Need-Based Exception.                     health care facilities in the patient’s               statute is designed to minimize drug
                                                    Examples of transfers of items or                    community or the surrounding areas;                   costs by encouraging the use of lower
                                                 services that, in context, might qualify                and unique physical, behavioral, or                   cost generic drugs. To implement this
                                                 as reasonably connected to medical care                 mental health issues that might interfere             waiver, we propose interpreting this
                                                 include:                                                with the patient’s ability to otherwise               statutory provision consistently with
                                                    • Distribution of protective helmets                 obtain access. Such circumstances in a                current CMS guidance. Thus, sponsors
                                                 and safety gear to hemophiliac children;                patient’s case would support the                      desiring to offer these waivers to their
                                                    • distribution of pagers to alert                    argument for a reasonable connection.                 enrollees would be required to disclose
                                                 patients with chronic medical                           We solicit comments about what                        this incentive program in their benefit
                                                 conditions to take their drugs;                         additional or alternative factors should              plan package submissions to CMS. We
                                                    • provision of free blood pressure                   be considered, if any, in the                         propose to include this requirement
                                                 checks to hypertensive patients;                        determination of a reasonable                         both to ensure consistency with current
                                                    • distribution of free nutritional                   connection between items or services                  CMS practice and to ensure
                                                 supplements to malnourished patients                    offered or transferred and the medical                transparency to beneficiaries when they
                                                 with end-stage renal disease (ESRD);                    care of the individual.                               select Part D or MA plans. We propose
                                                 and                                                        The fourth and final statutory                     to make this exception effective for
                                                    • provision of air conditioners to                   requirement is that the items or services             coverage years beginning after
                                                 asthmatic patients.                                     may be provided only ‘‘after                          publication of the final rule. We note,
                                                    However, in another context, these                   determining in good faith that the                    however, that CMS already permits
                                                 same items and services would not                       individual is in financial need.’’ We                 these waivers as part of Part D and MA
                                                 likely qualify as reasonably connected                  propose to interpret this provision as                plan benefit designs. Although this
                                                 to an individual patient’s medical care.                requiring an individualized assessment                proposed regulation will not be effective
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                 Most obviously, these would include                     of the patient’s financial need on a case-            until a future date, we will not exercise
                                                 transfers of items or services to an                    by-case basis. Moreover, the assessment               our enforcement authority against plans
                                                 individual for whom they were not                       must be conducted in good faith. We                   complying with CMS requirements for
                                                 medically indicated. We are considering                 believe, among other things, that a good              these waivers in the interim.
                                                 and seek comments, however, on the                      faith assessment requires the use of a
                                                 boundaries of the concept of ‘‘medically                reasonable set of income guidelines,                  2. Gainsharing
                                                 indicated.’’ For example, should a                      uniformly applied. This reasonable set                   The Gainsharing CMP is a self-
                                                 hospital be permitted to provide free                   of financial need guidelines should be                implementing law that prohibits


                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00036   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                                          Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules                                           59729

                                                 hospitals and critical access hospitals                 Physician-Owned Specialty Hospitals                     provisions of section 3022. In the
                                                 from knowingly paying a physician to                    (March 2005) (MedPAC Report). The                       Interim Final Rule implementing the
                                                 induce the physician to reduce or limit                 MedPAC Report provided examples of                      Shared Savings program waivers, the
                                                 services provided to Medicare or                        safeguards included in OIG advisory                     Secretary waived the Gainsharing CMP
                                                 Medicaid beneficiaries who are under                    opinions and posited that gainsharing                   with respect to certain aspects of the
                                                 the physician’s direct care. We proposed                programs could lead to program savings                  Shared Savings program, subject to
                                                 regulations in 1994 to interpret the                    over time. See id. at p. 46.                            applicable conditions. See 76 FR 67992
                                                 Gainsharing CMP (59 FR 61571 (Dec. 1,                     Later that year, the Chief Counsel to                 (Nov. 2, 2011).
                                                 1994)), but the proposed rule was not                   the Inspector General testified to the                     Both government and private insurers
                                                 finalized. In July 1999, we published a                 House Committee on Ways and Means                       have increased efforts to lower costs and
                                                 Special Advisory Bulletin titled                        about gainsharing. The testimony                        improve the quality of care. Better ways
                                                 ‘‘Gainsharing Arrangements and CMPs                     highlighted three types of safeguards                   of measuring quality and outcomes exist
                                                 for Hospital Payments to Physicians to                  that the OIG looked for when evaluating                 now than in the past. The growth of
                                                 Reduce or Limit Services to                             the risks posed by a gainsharing                        health information technology,
                                                 Beneficiaries’’ (the Gainsharing SAB),                  program: Measures that promote                          developments in data analytics and
                                                 available at: https://oig.hhs.gov/fraud/                accountability, adequate quality                        quality metrics, and broader use of
                                                 docs/alertsandbulletins/gainsh.htm. In                  controls, and controls on payments that                 evidence-based medicine all facilitate
                                                 the Gainsharing SAB, we explained that                  may change referral patterns. See                       such measurements and accountability
                                                 the Gainsharing CMP is broad and                        Testimony of Lewis Morris, Chief                        for performance. For example, the
                                                 prohibits any hospital incentive plan                   Counsel to the Inspector General, House                 Shared Savings program, as enacted,
                                                 that involves payments to physicians to                 Committee on Ways and Means,                            promotes an evidence-based medicine
                                                 encourage reductions or limitations in                  Subcommittee on Health (October 7,                      approach for accountable care
                                                 items or services provided to patients                  2005), available at https://oig.hhs.gov/                organizations participating in the
                                                 under the physicians’ clinical care. We                 testimony/docs/2005/Gainsharing10-07-                   Shared Savings program (ACOs): ‘‘[t]he
                                                 observed that the statute does not limit                05.pdf. Although the testimony focused                  ACO shall define processes to promote
                                                 this prohibition to reductions or                       largely on specific risks in gainsharing                evidence-based medicine and patient
                                                 limitations of medically necessary items                programs, and safeguards to counteract                  engagement, report on quality and cost
                                                 or services.                                            those risks, the testimony also explained               measures, and coordinate care, such as
                                                    We have previously observed that not                 that if properly structured, ‘‘gainsharing              through the use of telehealth, remote
                                                 all changes in practice necessarily                     arrangements may offer opportunities                    patient monitoring, and other such
                                                 constitute a reduction of services.                     for hospitals to reduce costs without                   enabling technologies.’’ Section
                                                 Health care payment and delivery                        causing inappropriate reductions in                     1899(b)(2)(G) of the Act.
                                                 systems are changing, with greater                      medical services or rewarding referrals                    Notwithstanding these and similar
                                                 emphasis on accountability for                          of Federal health care program                          developments, the Gainsharing CMP has
                                                 providing high quality care at lower                    patients.’’ Id. at p. 1. In fact, OIG would             not been amended by Congress. It
                                                 costs. We propose to codify the                         be unlikely to bring a case against a                   prohibits a hospital from knowingly
                                                 Gainsharing CMP in our regulations and                  hospital or physician for a gainsharing                 making a payment, directly or
                                                 interpret certain provisions in a manner                arrangement that included patient and                   indirectly, to a physician as an
                                                 that reflects today’s health care                       program safeguards such as those                        inducement to reduce or limit services
                                                 landscape.                                              identified in our advisory opinions.15                  provided to Medicare or Medicaid
                                                    OIG has recognized that gainsharing                    In addition, since 2005, Congress has                 beneficiaries who are under the direct
                                                 can be beneficial. In fact, we have                     authorized, and the Secretary has                       care of the physician. The statute does
                                                 approved 16 gainsharing arrangements                    approved, a number of projects                          not prohibit only payments to reduce
                                                 through our advisory opinion process.14                 involving gainsharing. For example, the                 medically necessary services; it
                                                 We found that the particular facts                      Deficit Reduction Act of 2005 16                        prohibits payments to reduce or limit
                                                 presented to us in those arrangements                   required the Secretary to establish a                   ‘‘services.’’ Without a change in the
                                                 presented few risks relative to those of                gainsharing program to test and evaluate                statute, we continue to believe that we
                                                 other gainsharing arrangements. The                     arrangements between hospitals and                      cannot read a ‘‘medically necessary’’
                                                 gainsharing programs in the advisory                    physicians designed to govern                           element into the prohibition. However,
                                                 opinions set out specific actions to be                 utilization of certain inpatient services               given the changes in the practice of
                                                 taken and tied remuneration to the                      to improve the quality and efficiency of                medicine over the years, including
                                                 actual cost savings attributable to the                 care. Section 3022 of ACA required the                  collaborative efforts among providers
                                                 arrangements. They included specific                    Secretary to establish a Medicare shared                and practitioners and the rise of widely
                                                 safeguards against patient and program                  savings program (Shared Savings                         accepted clinical metrics, we are
                                                 abuse.                                                  program) and allowed the Secretary to                   considering a narrower interpretation of
                                                    Citing to many of these advisory                     waive such requirements of sections                     the term ‘‘reduce or limit services’’ than
                                                 opinions, the Medicare Payment                          1128A and 1128B and Title XVIII of the                  we have previously held.
                                                 Advisory Commission (MedPAC)                            Act as may be necessary to carry out the                   Since issuing the Gainsharing SAB,
                                                 recommended that Congress authorize                                                                             we have had the opportunity to examine
                                                 the Secretary to allow gainsharing
                                                                                                           15 OIG has never pursued any gainsharing CMP          a number of different gainsharing
                                                 arrangements and to regulate those
                                                                                                         case. OIG always has been, and remains, open to         arrangements through our advisory
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                                                                         pursuing a gainsharing CMP case under appropriate       opinion process. In each favorable
                                                 arrangements to protect the quality of                  facts. Prior to initiating any such case, we would
                                                 care and minimize financial incentives                  consider the factors set out in the advisory opinions   opinion we issued, we found that the
                                                 that could influence physician referrals.               and considerations discussed in this preamble.          cost-saving measures proposed by the
                                                 See MedPAC, Report to the Congress:
                                                                                                         Pending further notice from OIG, gainsharing            hospitals implicated the statute. For
                                                                                                         arrangements are not an enforcement priority for        example, in OIG Advisory Opinion No.
                                                                                                         OIG unless the arrangement lacks sufficient patient
                                                   14 OIG Advisory Opinion Nos.: 00–02, 01–01, 05–       and program safeguards.                                 05–01, we stated: ‘‘the Proposed
                                                 01, 05–02, 05–03, 05–04, 05–05, 05–06, 06–22, 07–         16 Deficit Reduction Act of 2005, Public Law 109–     Arrangement constitutes an inducement
                                                 21, 07–22, 08–09, 08–15, 08–21, 09–06, 12–22.           171, § 5007, 120 Stat. 4, 34–36 (2006).                 to reduce or limit the current medical


                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00037   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                 59730                    Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules

                                                 practice at the Hospital.’’ We went on to               this interpretation appropriate or                    the delivery of health care, and the
                                                 state that ‘‘[w]e recognize that the                    necessary in the context of the                       potential safeguards to protect patients
                                                 current medical practice may involve                    Gainsharing CMP?                                      and promote accountability for
                                                 care that exceeds the requirements of                      • Should a hospital’s decision to                  outcomes, has been changing. We seek
                                                 medical necessity. However, whether                     standardize certain items (e.g., surgical             to interpret the statutory prohibition
                                                 the current medical practice reflects                   instruments, medical devices, or drugs)               broadly enough to protect beneficiaries
                                                 necessity or prudence is irrelevant for                 be deemed to constitute reducing or                   and Federal health care programs, but
                                                 purposes of the CMP.’’ OIG Advisory                     limiting care? Would the answer be the                narrowly enough to allow low risk
                                                 Opinion No. 05–01 (issued Jan. 28,                      same if the physicians were simply                    programs that further the goal of
                                                 2005, at pp. 7–8).17 This language                      encouraged to choose from the                         delivering high quality health care at a
                                                 implies that any change to current                      standardized items, but other items                   lower cost. We emphasize that this
                                                 medical practice that a hospital might                  remained available for use when                       proposed regulation would interpret the
                                                 initiate is potentially a reduction in care             deemed appropriate for any particular                 Gainsharing CMP. We have no authority
                                                 that could trigger CMP liability.                       patient?                                              to create an exception to the statute.
                                                 However, as hospitals move towards                         • Should a hospital’s decision to rely
                                                                                                         on protocols based on objective quality               III. Regulatory Impact Statement
                                                 using objective quality metrics, we
                                                 recognize that a change in practice does                metrics for certain procedures ever be                   We have examined the impact of this
                                                 not necessarily constitute a limitation or              deemed to constitute reducing or                      proposed rule as required by Executive
                                                 reduction of services, but may in fact                  limiting care (e.g., protocols calling for            Order 12866, the Regulatory Flexibility
                                                 constitute an improvement in patient                    the discontinuance of a prophylactic                  Act (RFA) of 1980, the Unfunded
                                                 care or a reduction in cost without                     antibiotic after a specific period of                 Mandates Reform Act of 1995, and
                                                 reducing patient care or diminishing its                time)? Should hospitals deciding to                   Executive Order 13132.
                                                 quality.                                                compensate physicians in connection
                                                                                                                                                               Executive Order 12866
                                                    The regulatory text we are proposing                 with the use of such protocols be
                                                 largely tracks the statute and is similar               required to maintain quality-monitoring                  Executive Order 12866 directs
                                                 to the text proposed in 1994. Besides                   procedures to ensure that these                       agencies to assess all costs and benefits
                                                 codifying the gainsharing prohibition                   protocols do not, even inadvertently,                 of available regulatory alternatives and,
                                                 itself, we propose to add a definition of               involve reductions in care? What types                if regulations are necessary, to select
                                                 ‘‘hospital’’ to proposed section 42 CFR                 of monitoring and documentation                       regulatory approaches that maximize
                                                 1003.110 (current § 1003.101). This                     would be reasonable and appropriate?                  net benefits (including potential
                                                 definition would refer to the definitions                  • Should a hospital desiring to                    economic, environmental, public health
                                                 of ‘‘hospital’’ and ‘‘critical access                   standardize items or processes as part of             and safety effects; distributive impacts;
                                                 hospital’’ in the Act. In addition,                     a gainsharing program be required to                  and equity). A regulatory impact
                                                 however, we are considering and solicit                 establish certain thresholds based on                 analysis must be prepared for major
                                                 comments on whether we should                           historical experience or clinical                     rules with economically significant
                                                 include a definition of the term ‘‘reduce               protocols, beyond which participating                 effects, i.e., $100 million or more in any
                                                 or limit services’’ to address the                      physicians could not share in cost                    given year. This is not a major rule as
                                                 considerations we express above. If so,                 savings (i.e., change beyond the relevant             defined at 5 U.S.C. 804(2); it is not
                                                 we solicit specific proposals and                       threshold would be deemed to                          economically significant because it does
                                                 safeguards that we should include in                    constitute reducing or limiting                       not reach that economic threshold.
                                                                                                         services)? For example, in OIG Advisory                  This proposed rule would implement
                                                 this definition to ensure that the goal of
                                                                                                         Opinion 05–01, the hospital had a                     or codify new and existing CMP
                                                 the statute is met: To prevent hospitals
                                                                                                         policy of performing blood cross-                     authorities and exceptions and
                                                 from paying physicians to discharge
                                                                                                         matching (in addition to typing and                   implement new or revised anti-kickback
                                                 patients too soon or take other action
                                                                                                         screening) in all cases and proposed to               statute safe harbors. The vast majority of
                                                 that inappropriately limits a
                                                                                                         perform cross-matching only when a                    providers and Federal health care
                                                 beneficiary’s care. We are not proposing
                                                                                                         patient required a transfusion. The facts             programs would be minimally
                                                 text of a definition at this time. We
                                                                                                         in that opinion were that less than 30                impacted, if at all, by these proposed
                                                 specifically solicit comments on the
                                                                                                         percent of cases actually required                    revisions.
                                                 following areas of concern, but we
                                                                                                         transfusions, so 30 percent was used as                  The changes to the safe harbors and
                                                 welcome any other comments relating to
                                                                                                         the threshold. Therefore, the surgeon                 CMP authorities and exceptions would
                                                 the topic:
                                                                                                         group would not receive any share of                  allow providers to enter into certain
                                                    • We have interpreted the prohibition
                                                                                                         savings resulting from performing cross-              beneficial arrangements. In doing so,
                                                 on payments to reduce or limit services
                                                                                                         matching in fewer than 30 percent of                  this regulation would impose no
                                                 as including payments to limit items
                                                                                                         cases.                                                requirements on any party. Providers
                                                 used in providing services, which is
                                                 consistent with the definition of                          • If we define ‘‘reduce or limit                   would be allowed to voluntarily seek to
                                                                                                         services,’’ should the regulation include             comply with these provisions so that
                                                 ‘‘services’’ found at 42 CFR 400.202. Is
                                                                                                         a requirement that the hospital and/or                they would have assurance that
                                                   17 Under section 1862 of the Act, no payment may      physician participating in a gainsharing              participating in certain agreements
                                                 be made under Part A or Part B for any expenses         program notify potentially affected                   would not subject them to liability
                                                 incurred for items or services that (with certain       patients about the program? Would such                under the anti-kickback statute and the
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                 exceptions) are not reasonable and necessary for the    a requirement help ensure that                        beneficiary inducement or gainsharing
                                                 diagnosis or treatment of illness or injury or to
                                                 improve the functioning of a malformed body             gainsharing payments were for                         CMPs. These safe harbors and
                                                 member. Under the Part A prospective payment            legitimate purposes and not for the                   exceptions facilitate providers’ ability to
                                                 system (PPS) for hospital inpatient stays, payments     purpose of reducing or limiting care?                 provide important health care and
                                                 are made for hospital stays that are reasonable and        Our proposal to define the term                    related services to communities in need.
                                                 necessary; however, additional payment is not
                                                 made if a patient receives individual items or
                                                                                                         ‘‘reduce or limit services’’ and our                  We believe that the aggregate economic
                                                 services in excess of, or more expensive than, those    solicitation of comments related to that              impact of the changes to these
                                                 factored into the PPS payment for covered care.         definition reflect our recognition that               regulations would be minimal and


                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00038   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                                          Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules                                           59731

                                                 would have no effect on the economy or                  Executive Order 13132                                  on the cost of operating the referral
                                                 on Federal or State expenditures.                          Executive Order 13132 establishes                   service, and not on the volume or value
                                                    Accordingly, we believe that the                     certain requirements that an agency                    of any referrals to or business otherwise
                                                 likely aggregate economic effect of these               must meet when it promulgates a rule                   generated by either party for the other
                                                 regulations would be significantly less                 that imposes substantial direct                        party for which payment may be made
                                                 than $100 million.                                      requirements or costs on State and local               in whole or in part under Medicare,
                                                                                                         governments, preempts State law, or                    Medicaid, or ther Federal health care
                                                 Regulatory Flexibility Act                                                                                     programs.
                                                                                                         otherwise has Federalism implications.
                                                    The RFA and the Small Business                       In reviewing this rule under the                       *       *     *     *    *
                                                 Regulatory Enforcement and Fairness                     threshold criteria of Executive Order                     (k) Waiver of beneficiary coinsurance
                                                 Act of 1996, which amended the RFA,                     13132, we have determined that this                    and deductible amounts. As used in
                                                 require agencies to analyze options for                 proposed rule would not significantly                  section 1128B of the Act,
                                                 regulatory relief of small businesses. For              affect the rights, roles, and                          ‘‘remuneration’’ does not include any
                                                 purposes of the RFA, small entities                     responsibilities of State or local                     reduction or waiver of a Medicare or a
                                                 include small businesses, non-profit                    governments.                                           State health care program beneficiary’s
                                                 organizations, and government agencies.                                                                        obligation to pay coinsurance or
                                                                                                         IV. Paperwork Reduction Act                            deductible amounts as long as all the
                                                 Most providers are considered small
                                                 entities by having revenues of $7                         This document does not impose                        standards are met within one of the
                                                 million to $35.5 million or less in any                 information collection and                             following categories of health care
                                                 one year. For purposes of the RFA, most                 recordkeeping requirements.                            providers or suppliers.
                                                 physicians and suppliers are considered                 Consequently, it need not be reviewed                  *       *     *     *    *
                                                 small entities.                                         by the Office of Management and                           (3) If the copayment, coinsurance, or
                                                    The changes to the CMP provisions                    Budget under the authority of the                      deductible amounts are owed to a
                                                 would be minimal, and the changes to                    Paperwork Reduction Act of 1995.                       pharmacy (including, but not limited to,
                                                 the anti-kickback statute safe harbors                  List of Subjects                                       pharmacies of the Indian Health
                                                 would not significantly affect small                                                                           Service, Indian tribes, tribal
                                                 providers as these would not impose                     42 CFR Part 1001                                       organizations, and urban Indian
                                                 any requirement on any party.                             Administrative practice and                          organizations) for cost-sharing imposed
                                                                                                         procedure, Fraud, Grant programs—                      under part D of Title XVIII provided
                                                    In summary, we have concluded that
                                                                                                         health, Health facilities, Health                      that—
                                                 this proposed rule should not have a
                                                                                                         professions, Maternal and child health,                   (i) The waiver is not offered as part of
                                                 significant impact on the operations of
                                                                                                         Medicaid, Medicare.                                    an advertisement or solicitation and
                                                 a substantial number of small providers
                                                                                                                                                                   (ii) Except for waivers or reductions
                                                 and that a regulatory flexibility analysis              42 CFR Part 1003                                       offered to subsidy-eligible individuals
                                                 is not required for this rulemaking.
                                                                                                           Fraud, Grant programs—health,                        (as defined in section 1860D–14(a)(3)) to
                                                    In addition, section 1102(b) of the Act              Health facilities, Health professions,                 which only requirement in paragraph
                                                 (42 U.S.C. 1302) requires us to prepare                 Medicaid, Reporting and recordkeeping.                 (k)(3)(i) of this section applies:
                                                 a regulatory impact analysis if a rule                                                                            (A) The pharmacy does not routinely
                                                 under Titles XVIII or XIX or section B                    For the reasons set forth in the
                                                                                                         preamble, the Office of Inspector                      waive copayment, coinsurance, or
                                                 of Title XI of the Act may have a                                                                              deductible amounts and
                                                 significant impact on the operations of                 General, Department of Health and
                                                                                                         Human Services, proposes to amend 42                      (B) The pharmacy waives the
                                                 a substantial number of small rural                                                                            copayment, coinsurance, or deductible
                                                 hospitals. For the reasons stated above,                CFR chapter V as follows:
                                                                                                                                                                amounts only after determining in good
                                                 we do not believe that any provisions or                PART 1001—PROGRAM INTEGRITY—                           faith that the individual is in financial
                                                 changes proposed here would have a                      MEDICARE AND STATE HEALTH                              need or fails to collect the copayment,
                                                 significant impact on the operations of                 CARE PROGRAMS                                          coinsurance, or deductible after making
                                                 rural hospitals. Thus, an analysis under                                                                       reasonable collection efforts.
                                                 section 1102(b) is not required for this                ■ 1. The authority citation for part 1001                 (4) If the coinsurance or deductible
                                                 rulemaking.                                             continues to read as follows:                          amounts are owed to an ambulance
                                                 Unfunded Mandates Reform Act                              Authority: 42 U.S.C. 1302, 1320a–7,                  provider or supplier for emergency
                                                                                                         1320a–7b, 1395u(j), 1395u(k), 1395w–                   ambulance services for which Medicare
                                                   Section 202 of the Unfunded                           104(e)(6), 1395y(d), 1395y(e),                         pays under a fee-for-service payment
                                                 Mandates Reform Act of 1995, Public                     1395cc(b)(2)(D), (E) and (F), and 1395hh; and          system and all the following conditions
                                                 Law 104–4, also requires that agencies                  sec. 2455, Public Law 103–355, 108 Stat.               are met:
                                                 assess anticipated costs and benefits                   3327 (31 U.S.C. 6101 note).                               (i) The ambulance provider or
                                                 before issuing any rule that may result                 ■ 2. Section 1001.952 is amended by                    supplier is owned and operated by a
                                                 in expenditures in any one year by                      revising paragraphs (f)(2), (k)                        State, a political subdivision of a State,
                                                 State, local, or tribal governments, in the             introductory text, and by adding                       or a federally recognized Indian tribe;
                                                 aggregate, or by the private sector, of                 paragraphs (k)(3), (k)(4), (z), (aa), and                 (ii) The ambulance provider or
                                                 $100 million, adjusted for inflation. We                (bb) to read as follows:                               supplier is the Medicare Part B provider
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                 believe that no significant costs would                                                                        or supplier of the emergency ambulance
                                                 be associated with these proposed                       § 1001.952        Exceptions.                          services;
                                                 revisions that would impose any                         *      *     *   *     *                                  (iii) The ambulance provider’s or
                                                 mandates on State, local, or tribal                        (f) * * *                                           supplier’s reduction or waiver of
                                                 governments or the private sector that                     (2) Any payment the participant                     coinsurance or deductible amounts is
                                                 would result in an expenditure of $141                  makes to the referral service is assessed              not considered to be the furnishing of
                                                 million (after adjustment for inflation)                equally against and collected equally                  free services paid for directly or
                                                 in any given year.                                      from all participants and is based only                indirectly by a government entity;


                                            VerDate Sep<11>2014   17:21 Oct 02, 2014   Jkt 232001   PO 00000   Frm 00039    Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                 59732                    Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules

                                                    (iv) The ambulance supplier offers the               time by drivers who provide the                        for other than fair market value. The
                                                 reduction or waiver on a uniform basis,                 transportation, and drivers or others                  term ‘‘remuneration’’ does not include—
                                                 without regard to patient-specific                      arranging for the transportation are not               *       *    *      *     *
                                                 factors; and                                            paid on a per-beneficiary transported                     (5) A reduction in the copayment
                                                    (v) The ambulance provider or                        basis;                                                 amount for covered OPD services under
                                                 supplier must not later claim the                          (4) The Eligible Entity that makes the              section 1833(t)(8)(B) of the Act;
                                                 amount reduced or waived as a bad debt                  free or discounted transportation                         (6) [Reserved];
                                                 for payment purposes under Medicare                     available furnishes the services only:                    (7) The offer or transfer of items or
                                                 or otherwise shift the burden of the                       (i) To the established patient (and, if             services for free or less than fair market
                                                 reduction or waiver onto Medicare, a                    needed, a person to assist the patient) to             value by a person if—
                                                 State health care program, other payers,                obtain medically necessary items or                       (i) The items or services consist of
                                                 or individuals.                                         services, and                                          coupons, rebates, or other rewards from
                                                 *      *    *     *     *                                  (ii) Within the local area of the health            a retailer;
                                                    (z) As used in section 1128B of the                  care provider or supplier to which the                    (ii) The items or services are offered
                                                 Act, ‘‘remuneration’’ does not include                  patient would be transported;                          or transferred on equal terms available
                                                 any remuneration between a federally                       (5) The Eligible Entity that makes the              to the general public, regardless of
                                                 qualified health center (or an entity                   transportation available bears the costs               health insurance status; and
                                                 controlled by such a health center) and                 of the free or discounted local                           (iii) The offer or transfer of the items
                                                 a Medicare Advantage organization                       transportation services and does not                   or services is not tied to the provision
                                                 pursuant to a written agreement                         shift the burden of these costs onto                   of other items or services reimbursed in
                                                 described in section 1853(a)(4) of the                  Medicare, a State health care program,                 whole or in part by the program under
                                                 Act.                                                    other payers, or individuals.                          title XVIII or a State health care program
                                                                                                            Note to paragraph (bb): For purposes                (as defined in section 1128(h) of the
                                                    (aa) Medicare Coverage Gap Discount
                                                                                                         of this paragraph (bb), an ‘‘Eligible                  Act);
                                                 Program. As used in section 1128B of
                                                                                                         Entity’’ is any individual or entity,                     (8) The offer or transfer of items or
                                                 the Act, ‘‘remuneration’’ does not
                                                                                                         except for individuals or entities (or                 services for free or less than fair market
                                                 include a discount in the price of a drug
                                                                                                         family members or others acting on their               value by a person, if—
                                                 when the discount is furnished to a
                                                                                                         behalf) that primarily supply health care                 (i) The items or services are not
                                                 beneficiary under the Medicare
                                                                                                         items; and if the distance from the                    offered as part of any advertisement or
                                                 Coverage Gap Discount Program
                                                                                                         patient’s location to the provider or                  solicitation;
                                                 established in section 1860D–14A of the
                                                                                                         supplier to which the patient would be                    (ii) The offer or transfer of the items
                                                 Act, so long as all the following
                                                                                                         transported is no more than 25 miles,                  or services is not tied to the provision
                                                 requirements are met:
                                                                                                         the transportation is deemed to be local.              of other items or services reimbursed in
                                                    (1) The discounted drug meets the
                                                 definition of ‘‘applicable drug’’ set forth                                                                    whole or in part by the program under
                                                                                                         PART 1003—CIVIL MONEY                                  Title XVIII or a State health care
                                                 in section 1860D–14A(g) of the Act;                     PENALTIES, ASSESSMENTS AND
                                                    (2) The beneficiary receiving the                                                                           program;
                                                                                                         EXCLUSIONS                                                (iii) There is a reasonable connection
                                                 discount meets the definition of
                                                 ‘‘applicable beneficiary’’ set forth in                 ■ 3. The authority citation for part 1003              between the items or services and the
                                                 section 1860D–14A(g) of the Act; and                    continues to read as follows:                          medical care of the individual; and
                                                    (3) The manufacturer of the drug                                                                               (iv) The person provides the items or
                                                                                                           Authority: 42 U.S.C. 262a, 1302, 1320–7,
                                                 participates in, and is in full compliance                                                                     services after determining in good faith
                                                                                                         1320a–7a, 1320b–10, 1395u(j), 1395u(k),
                                                 with all requirements of, the Medicare                  1395cc(j), 1395w–141(i)(3), 1395dd(d)(1),              that the individual is in financial need;
                                                                                                         1395mm, 1395nn(g), 1395ss(d), 1396b(m),                   (9) Waivers by a sponsor of a
                                                 Coverage Gap Discount Program.
                                                                                                         11131(c), and 11137(b)(2).                             Prescription Drug Plan under part D of
                                                    (bb) Local Transportation. As used in
                                                                                                                                                                Title XVIII or a Medicare Advantage
                                                 section 1128B of the Act,                               ■ 4. Section 1003.101 as proposed to be                organization offering an MA–PD Plan
                                                 ‘‘remuneration’’ does not include free or               redesignated as 1003.110 and amended                   under part C of such title of any
                                                 discounted local transportation made                    at 79 FR 27080 (May 12, 2014) is further               copayment for the first fill of a covered
                                                 available by an Eligible Entity (as                     amended by adding the definition of                    Part D drug (as defined in section
                                                 defined in this paragraph (bb)) to                      ‘‘Hospital’’ and by amending the                       1860D–2(e)) that is a generic drug (as
                                                 established patients who are Federal                    definition of ‘‘Remuneration’’ by                      defined in 42 CFR 423.4) for individuals
                                                 health care program beneficiaries for the               revising the introductory text and                     enrolled in the Prescription Drug Plan
                                                 purpose of obtaining medically                          adding paragraphs (5) through (9) to                   or MA–PD Plan, respectively, as long as
                                                 necessary items or services if all the                  read as follows:                                       such waivers are included in the benefit
                                                 following conditions are met:
                                                                                                         § 1003.101        Definitions.                         design package submitted to CMS. This
                                                    (1) The availability of the free or
                                                                                                         *     *     *    *      *                              exception is effective for coverage years
                                                 discounted local transportation services
                                                                                                            Hospital means a hospital as defined                beginning after publication of the final
                                                 is not determined in a manner related to
                                                                                                         in section 1861(e) of the Act or critical              rule.
                                                 the past or anticipated volume or value
                                                 of Federal health care program business;                access hospital as defined in section                  *       *    *      *     *
                                                    (2) The free or discounted local                     1861(mm)(1) of the Act.                                ■ 5. Part 1003, as proposed to be
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                 transportation services do not take the                 *     *     *    *      *                              amended at 79 FR 27080, (May 12,
                                                 form of air, luxury, or ambulance-level                    Remuneration, for the purposes of                   2014) is further amended by adding
                                                 transportation;                                         § 1003.1000(a) of this part, is consistent             subpart G to read as follows:
                                                    (3) The free or discounted local                     with the definition in section
                                                                                                                                                                Subpart G—CMPs for Gainsharing
                                                 transportation services are not marketed                1128A(i)(6) of the Act and includes the
                                                                                                                                                                Violations
                                                 or advertised, no marketing of health                   waiver of coinsurance and deductible
                                                 care items and services occurs during                   amounts (or any part thereof) and                      Sec.
                                                 the course of the transportation or at any              transfers of items or services for free or             1003.700    Basis for civil money penalties.



                                            VerDate Sep<11>2014   14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00040    Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
                                                                            Federal Register / Vol. 79, No. 192 / Friday, October 3, 2014 / Proposed Rules                                         59733

                                                 1003.710 Amount of penalties.                             DEPARTMENT OF COMMERCE                                complete the required fields, and enter
                                                 1003.720 Determinations regarding the                                                                           or attach your comments.
                                                     amount of penalties.                                  National Oceanic and Atmospheric                         • Mail: Submit written comments to
                                                                                                           Administration                                        Glenn Merrill, Assistant Regional
                                                 § 1003.700       Basis for civil money penalties.
                                                                                                                                                                 Administrator, Sustainable Fisheries
                                                   OIG may impose a penalty against any                    50 CFR Part 679                                       Division, Alaska Region NMFS, Attn:
                                                 person who it determines in accordance                    [Docket No. 140519437–4437–01]                        Ellen Sebastian. Mail comments to P.O.
                                                 with this part—                                                                                                 Box 21668, Juneau, AK 99802–1668.
                                                                                                           RIN 0648–BE24
                                                   (a) Is a hospital that knowingly makes                                                                           Instructions: Comments sent by any
                                                 a payment, directly or indirectly, overtly                Fisheries of the Exclusive Economic                   other method, to any other address or
                                                 or covertly, in cash or in kind, to a                     Zone Off Alaska; Establishing Transit                 individual, or received after the end of
                                                 physician as an inducement to reduce or                   Areas through Walrus Protection                       the comment period, may not be
                                                 limit services provided to an individual                  Areas at Round Island and Cape                        considered by NMFS. All comments
                                                 who is eligible for Medicare or Medicaid                  Peirce, Northern Bristol Bay, Alaska                  received are a part of the public record
                                                 benefits and who is under the direct                                                                            and will generally be posted for public
                                                                                                           AGENCY:  National Marine Fisheries                    viewing on www.regulations.gov
                                                 care of the physician;                                    Service (NMFS), National Oceanic and                  without change. All personal identifying
                                                   (b) Is a physician who knowingly                        Atmospheric Administration (NOAA),                    information (e.g., name, address),
                                                 receives a payment described in                           Commerce.                                             confidential business information, or
                                                 paragraph (a) of this section.                            ACTION: Proposed rule; request for                    otherwise sensitive information
                                                                                                           comments.                                             submitted voluntarily by the sender will
                                                 § 1003.710       Amount of penalties.
                                                                                                                                                                 be publicly accessible. NMFS will
                                                   (a) OIG may impose a penalty against                    SUMMARY:   NMFS issues a proposed rule                accept anonymous comments (enter
                                                 a hospital of not more than $2,000 for                    that would implement Amendment 107                    ‘‘N/A’’ in the required fields if you wish
                                                                                                           to the Fishery Management Plan for                    to remain anonymous). Attachments to
                                                 each individual for whom payment was
                                                                                                           Groundfish of the Bering Sea and                      electronic comments will be accepted in
                                                 made to a physician in violation of
                                                                                                           Aleutian Islands Management Area                      Microsoft Word, Excel, or Adobe PDF
                                                 § 1003.700.                                               (BSAI FMP). If approved, Amendment                    file formats only.
                                                   (b) OIG may impose a penalty against                    107 would establish seasonal transit                     Electronic copies of the
                                                 a physician of not more than $2,000 for                   areas for vessels designated on Federal               Environmental Assessment/Regulatory
                                                 each individual for whom the physician                    Fisheries Permits (FFPs) through Walrus               Impact Review/Initial Regulatory
                                                 received payment from a hospital in                       Protection Areas in northern Bristol                  Flexibility Analysis (Analysis) prepared
                                                 violation of § 1003.700.                                  Bay, AK. This action would allow                      for this action are available from http://
                                                                                                           vessels designated on FFPs to transit                 www.regulations.gov or from the NMFS
                                                 § 1003.720 Determinations regarding the                   through Walrus Protection Areas in the
                                                 amount of penalties.                                                                                            Alaska Region Web site at
                                                                                                           Exclusive Economic Zone (EEZ) near                    http://alaskafisheries.noaa.gov/
                                                   In determining the amount of any                        Round Island and Cape Peirce from                     sustainablefisheries/.
                                                 penalty or assessment, OIG will                           April 1 through August 15, annually.
                                                                                                           This action is necessary to restore the                  Written comments regarding the
                                                 consider the factors listed in § 1003.140,                                                                      burden-hour estimates or other aspects
                                                 as well as the following:                                 access of federally permitted vessels to
                                                                                                           transit through Walrus Protection Areas               of the collection-of-information
                                                   (a) The nature of the payment                           that was limited by regulations                       requirements contained in this proposed
                                                 designed to reduce or limit services and                  implementing Amendment 83 to the                      action may be submitted to NMFS at the
                                                 the circumstances under which it was                      Fishery Management Plan for                           above address and by email to OIRA_
                                                 made,                                                     Groundfish of the Gulf of Alaska (GOA                 Submission@omb.eop.gov or fax to 202–
                                                                                                           FMP) and to maintain suitable                         395–7285.
                                                   (b) The extent to which the payment
                                                 encouraged the limiting of medical care                   protection for walruses on Round Island               FOR FURTHER INFORMATION CONTACT:
                                                 or the premature discharge of the                         and Cape Peirce. This action would                    Anne Marie Eich, 907–586–7172.
                                                 patient,                                                  maintain an existing prohibition on                   SUPPLEMENTARY INFORMATION: NMFS
                                                                                                           deploying fishing gear in Walrus                      manages groundfish fisheries in the EEZ
                                                   (c) The extent to which the payment
                                                                                                           Protection Areas by vessels designated                off Alaska under the GOA FMP and the
                                                 caused actual or potential harm to
                                                                                                           on an FFP. This action is intended to                 BSAI FMP. The North Pacific Fishery
                                                 program beneficiaries, and                                promote the goals and objectives of the               Management Council (Council)
                                                   (d) The financial condition of the                      Magnuson-Stevens Fishery                              prepared these FMPs under the
                                                 hospital (or physician) involved in the                   Conservation and Management Act, the                  authority of the Magnuson-Stevens
                                                 offering (or acceptance) of the payment.                  BSAI FMP, and other applicable law.                   Fishery Conservation and Management
                                                   Dated: March 1, 2014.                                   DATES: Submit comments on or before                   Act (Magnuson-Stevens Act), 16 U.S.C.
                                                 Daniel R. Levinson,                                       November 3, 2014.                                     1801, et seq. Regulations governing U.S.
                                                                                                           ADDRESSES: You may submit comments                    fisheries and implementing the FMPs
                                                 Inspector General.
                                                                                                           on this document, identified by NOAA–                 appear at 50 CFR parts 600 and 679.
rmajette on DSK2TPTVN1PROD with PROPOSALS




                                                   Approved: September 18, 2014.
                                                                                                           NMFS–2014–0066, by either of the                      Background
                                                 Sylvia M. Burwell,                                        following methods:
                                                 Secretary.                                                   • Electronic Submission: Submit all                  The following sections of the
                                                 [FR Doc. 2014–23182 Filed 10–2–14; 8:45 am]               electronic public comments via the                    preamble describe: (1) The Walrus
                                                 BILLING CODE 4152–01–P                                    Federal e-Rulemaking Portal. Go to                    Protection Areas; (2) the effects of
                                                                                                           www.regulations.gov/                                  disturbance on walruses; (3) the areas
                                                                                                           #!docketDetail;D=NOAA-NMFS-2014-                      and vessels affected by this proposed
                                                                                                           0066, click the ‘‘Comment Now!’’ icon,                action; and (4) the proposed action.


                                            VerDate Sep<11>2014     14:51 Oct 02, 2014   Jkt 235001   PO 00000   Frm 00041   Fmt 4702   Sfmt 4702   E:\FR\FM\03OCP1.SGM   03OCP1
